AUDIT OF THE DEPARTMENT OF JUSTICE’S

 IMPLEMENTATION OF THE INTEGRATED 

         WIRELESS NETWORK

            U.S. Department of Justice 

          Office of the Inspector General 

                   Audit Division 


                Audit Report 12-10 

                  January 2012 





        REDACTED FOR PUBLIC RELEASE 

             AUDIT OF THE DEPARTMENT OF JUSTICE’S 

                      IMPLEMENTATION OF 

              THE INTEGRATED WIRELESS NETWORK 


                             EXECUTIVE SUMMARY


      A reliable, secure, and seamless communications network is essential
to law enforcement officers, including special agents, when performing
routine enforcement work, but is even more critical when performing special
and emergency operations. The agencies within the Department of Justice
(Department) rely on several separate land mobile radio systems, which
include handheld radios, to provide this communication capability. However,
an ongoing concern has been that the Department’s systems are aging, with
some being outdated. To address these issues, the Department began the
Integrated Wireless Network (IWN) program in 1998.

       The Department’s Justice Management Division manages the IWN
program and the Department’s Chief Information Officer is responsible for
the program’s overall implementation. The original IWN plan, established in
2004, was intended to support over 81,000 federal agents from three
agencies in all 50 states and the U.S. territories. Estimated to cost over
$5 billion, IWN was designed not only to address the Department’s aging
systems, but to also meet federal law enforcement requirements to
communicate across agencies, allow interoperability with state and local law
enforcement partners, and meet mandates to use federal radio frequency
spectrum more efficiently. Beginning in 2001, the administration of the IWN
program was expanded to ultimately include the Departments of the
Treasury (Treasury) and Homeland Security (DHS). However, the IWN plan
was never fully funded by Congress or by the Department at a level to
adequately attain the goals of the program. In addition, DHS is no longer an
active participant in the IWN program implementation and Treasury’s
continued participation is uncertain.




        * The full version of this report contains information that is considered law
enforcement sensitive, and therefore could not be publicly released. The Office of the
Inspector General redacted portions of the full report to create this public version of the
report.

                                               i
Office of the Inspector General Audit Approach

       The Office of the Inspector General (OIG) performed this audit to
assess the status of the implementation of the IWN program. In our
previous audit, issued in March 2007, we found that the IWN program was
at high risk of failing to secure an integrated wireless network for use by the
Department, Treasury, and DHS. The issues contributing to the high risk of
failing included: (1) uncertain funding for the project; (2) disparate
departmental funding mechanisms that allowed the departments to pursue
separate wireless communications solutions apart from IWN; (3) the
fractured nature of the IWN partnership; and (4) the lack of an effective
governing structure for the project.

      The objectives of this audit were to: (1) assess the progress made in
the implementation of the IWN program since our previous audit was issued
in 2007, including the program’s cost, schedule, and performance;
(2) assess whether the Department’s communications systems comply with
the National Telecommunications and Information Administration’s
requirements; and (3) assess the Department’s implementation of our
previous recommendations.

      To accomplish these objectives, we examined documents provided to
us by Department officials including the IWN Program and Strategic Plans,
Wireless Communications Board minutes and other pertinent documents.
We also interviewed Department officials, including representatives from law
enforcement components such as the Bureau of Alcohol, Tobacco, Firearms
and Explosives; the Drug Enforcement Administration; the Federal Bureau of
Investigation; and the U.S. Marshals Service, the ultimate IWN users.

      In addition, we reviewed relevant U.S. Government Accountability
Office reports to determine issues it identified and reported on with respect
to IWN and interoperable communications. Finally, we reviewed budget
documents, including those for fiscal years (FY) 2011 and 2012, to obtain
the most current information available on the future of the IWN program.

Results in Brief

      Despite costing over $356 million over 10 years, the IWN program has
yet to achieve the results intended when the Department initially began
developing it in 1998. As a result, the Department’s law enforcement
components are still using old and often obsolete equipment. There is
limited interoperability between the components and with other law

                                       ii
enforcement agencies. The IWN program continues to struggle with funding
limitations that have resulted in multiple revisions to the plan and a
significant reduction in the planned nationwide implementation. In addition,
the IWN program is no longer a joint program with the Departments of the
Treasury and Homeland Security.

      The IWN program was designed to replace the aging and increasingly
unreliable land mobile radio (LMR) systems that were in place. The program
was expected to consolidate the separate and not interoperable systems
used by agents of the Bureau of Alcohol, Tobacco, Firearms and Explosives;
the Drug Enforcement Administration; the Federal Bureau of Investigation;
and the U.S. Marshals Service. In addition, IWN was intended to address
evolving security and technical requirements designed to ensure the security
and safety of law enforcement officers. These security requirements
included the adoption of an upgraded encryption standard to ensure the
security of the law enforcement officers’ communications.

       However, we found that many of the Department’s radios do not meet
some or all of the intended requirements. Operational communications
between the Department’s law enforcement components remains a challenge
because of: (1) individual radio systems with limited interoperability;
(2) continued use of legacy equipment (the current equipment that the
agencies are using) that does not meet security encryption requirements,
and are not capable of over-the-air rekeying; and (3) the reliance on
different frequency ranges.1

       In October 1993, the Department of Commerce’s National
Telecommunications and Information Administration (NTIA) established a
requirement that federal agencies cut all federal radio spectrum usage in
half by 2008. Expanding technology and the development of applications
such as cell phones and other wireless devices requiring radio frequency
spectrum has increased the demand for more efficient use of the finite
spectrum. We found in our 2007 audit report that the Department was not
fully compliant with this NTIA mandated narrowbanding requirement, and we
found in our current audit that the Department still is not fully compliant
with this requirement.



       1
          For example, we found that     percent of the DEA’s and     percent of the FBI’s
land mobile radio systems do not meet Department adopted encryption standards. In
addition,    percent of ATF base stations,    percent of portable radios, and    percent of
mobile radios do not meet the updated encryption standards.

                                             iii
       The Department planned to comply with this mandate as part of the
IWN program’s LMR system upgrade. However, 3 years after the conversion
deadline, insufficient program funding and logistical problems continue to
negatively affect the Department’s ability to comply with the NTIA mandate
to increase spectrum efficiency. The effects of the Department’s failure to
comply with the mandate have been minimal thus far because the instances
of conflicts have been few in number and resolved without much difficulty.

      The Department reached a revised agreement with the Departments of
Treasury and Homeland Security in 2008. This 2008 agreement replaced
the original agreement reached in 2004 to develop, implement, and manage
a joint wireless communications system. However, we found that this
agreement has not resulted in a joint pursuit of the IWN program with the
Departments of Treasury and Homeland Security. Rather, the 2008
agreement allows the agencies to pursue mutual projects when viable but
also allows the agencies to continue pursuing independent upgrades to meet
their wireless communications requirements. As a result, the Department
has yet to achieve communication interoperability with other federal, state,
and local law enforcement agencies.

       In 2008, the plan to implement IWN was projected to cost $1.2 billion
over 6 years and divided the nation into six regions for development. In
2009, the Department began implementing the first phase of its plan in the
National Capital Region, which includes the Washington, D.C., area and is a
part of the plan’s Region 1. However, as a result of funding reductions that
occurred in FY 2010, the Department has adopted a revised plan to continue
the deployment of IWN to the remaining regions throughout the United
States. Additional funding cuts in FY 2011 and the planned suspension of
funding for IWN in FY 2012 will also necessitate further revisions to the
Department’s plan. However, the Department has yet to finalize these
revisions.

Conclusions

       The fate of the IWN program as originally planned is uncertain. As we
previously stated in our 2007 audit report, the fractured nature of the IWN
partnership and the lack of a centralized funding mechanism increases the
risk that the IWN program will not operate as originally envisioned. Funding
delays and reductions have affected the Department’s ability to implement
the nationwide system as planned by 2010. As a result, the Department’s
law enforcement agents continue to utilize radio systems and unsecure
communications equipment that are over 15 years old in the performance of

                                     iv
their duties. In addition, the Department’s inability to deploy IWN
nationwide has affected the Department’s ability to comply with the NTIA
narrowbanding requirement and upgraded encryption standard. The
Department’s proposed FY 2012 budget recommends suspending further
development of IWN, thus decreasing the likelihood that the program will be
fully deployed.

       More than 10 years have passed since the Department began the IWN
program to address the law enforcement components’ aging communications
systems and the 1993 mandate to use radio frequency spectrum more
efficiently. In that time, technology has evolved rapidly. The President’s
2012 Budget, in recommending the suspension of the IWN program, cited
current technology alternatives, such as 3G and 4G Long Term Evolution
(LTE) along with the National Public Safety Broadband Plan in development,
which are available today and did not exist when IWN was originally
conceived.2 Many believe that LMR systems will be replaced by some type of
secure broadband system. However, technology that will fulfill the needs of
law enforcement agencies has yet to be refined. There is still a need for an
improved communications system, and while IWN may no longer be the best
solution, a solution is desperately needed. The Department should explore
other available solutions, such as 3G and 4G LTE along with the National
Public Safety Broadband Plan in development, while considering the unique
needs of law enforcement personnel.




       2
          3G and 4G LTE are the 3rd and 4th generation Long Term Evolution of the wireless
networks and the National Public Safety Broadband plan is part of the Administration’s
efforts to make the internet available nationally.

                                             v
                                TABLE OF CONTENTS



INTRODUCTION ............................................................................... 1
 
     Background.............................................................................. 1
 
     Integrated Wireless Network History............................................ 5
 
     Law Enforcement Wireless Communications Account .................... 10
 
     Prior Reports .......................................................................... 11 


FINDINGS AND RECOMMENDATIONS.............................................. 16


  I.	    LIMITED PROGRESS ON ACHIEVING INTERAGENCY 

         INTEROPERABILITY ............................................................. 16
 
         Interoperability....................................................................... 16
 

II.	     STATUS OF THE IWN PROGRAM’S IMPLEMENTATION 

         WITHIN THE DEPARTMENT ................................................. 21
 
         Components’ Land Mobile Radio Systems ................................... 21
 
         Implementation of the National Capital Region Module ................. 27
 
         Other Issues Affecting the IWN Project ...................................... 32
 
         Issues with IWN Oversight ....................................................... 39
 

  III.	  STATUS ON DEPARTMENT’S COMPLIANCE WITH THE NTIA 

         NARROWBANDING MANDATE............................................... 49
 
         NTIA Narrowbanding Mandate .................................................. 49
 
         Spectrum Management............................................................ 50
 
         Conclusion ............................................................................. 52
 
         Recommendations .................................................................. 54
 

STATEMENT ON INTERNAL CONTROLS............................................ 55
 

APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY................ 56
 

APPENDIX II - ACRONYMS ............................................................. 58


APPENDIX III - DEPARTMENT OF JUSTICE RESPONSE 

               TO THE DRAFT AUDIT REPORT ...............................59


APPENDIX IV - OFFICE OF THE INSPECTOR GENERAL ANALYSIS 

              AND SUMMARY OF ACTIONS NECESSARY 

              TO RESOLVE AND CLOSE THE REPORT .....................63

                           INTRODUCTION

      In 2004, the Departments of Justice (Department), Treasury, and
Homeland Security (DHS) agreed to jointly develop the Integrated Wireless
Network (IWN), a secure wireless, nationwide communications network to
enhance the ability of federal law enforcement agencies to communicate
with each other. IWN was to support over 81,000 federal agents from
3 agencies in 50 states and the U.S. territories when fully implemented.
Cost and time estimates exceeded $5 billion through 2021 with the
expectation that IWN would replace aging, outdated equipment, address
federal agency requirements to communicate across agencies, allow
interoperability with state and local law enforcement partners, and meet
mandates to use the federal radio frequency spectrum more efficiently.

       In our 2007 audit report, we expressed concern that IWN was at risk
to fail because of uncertain project funding and departmental funding
mechanisms that allowed the Department, Treasury, and DHS to pursue
separate projects apart from IWN. Other causes we noted included the
fractured nature of the IWN partnership and the lack of an effective
governing structure for the project. As we discuss more fully below, we
found that the Department has made little progress since 2007 in
implementing IWN as it was originally envisioned.

Background

      Department law enforcement agents from the Bureau of Alcohol,
Tobacco, Firearms and Explosives (ATF); Drug Enforcement Administration
(DEA); Federal Bureau of Investigation (FBI); and U.S. Marshals Service
(USMS) must be able to communicate quickly and securely with each other
to identify and apprehend criminals and to disrupt or respond to terrorist
attacks. Agents must be able to communicate with other agents within the
Department, with agents of other federal law enforcement agencies, and
with local and state law enforcement officers and first responders.

       Additionally, Department agents are facing occasions when some form
of protected communication in the field is necessary. During our audit, the
Department provided specific examples of where operations or agents were
at risk due to problems with obtaining secure radio communications in the
field. In Nashville, Tennessee, drug trafficking organizations scanned DEA
agents’ radio traffic. Before agents could conduct arrests and serve search
warrants, drug traffickers warned their criminal associates of the DEA
operation. In Grand Junction, Colorado, a DEA agent entered a bowling alley
                                       1

to verify the identity of a violent felon. The DEA agent was unable to
communicate through radio to the entire surveillance team that he had
identified the target. A Task Force Officer unknowingly approached the
suspect, and the suspect drew a gun on the officer. Before the suspect
could fire his weapon, the DEA agent observed the threat and fired at the
offender.

      After the September 11, 2001 terrorist attacks, the mandate to
improve spectrum efficiency was overshadowed by the need to develop a
secure, interoperable communication system for federal, state, and local law
enforcement and emergency personnel. IWN’s goals included improving this
interoperability, which continued to be an issue in natural disasters like
Hurricane Katrina.

Land Mobile Radio Systems

      To accomplish its law enforcement mission, the Department employs
land mobile radio (LMR) systems to provide secure and dedicated
communications. LMRs are the primary means of communication among
public safety personnel, and typically consist of handheld portable radios,
mobile radios, base stations, and repeaters. The Department’s law
enforcement agents generally carry handheld portable radios. The agents
also have more powerful mobile radios which are located in vehicles. These
mobile radios have a greater transmission range than the portable radios.
The portable and mobile radios are used to communicate with a base station
or command center that are fixed locations with powerful transmitters. The
signals from the radios and base stations are transmitted through a network
that allows the users to communicate. Repeaters, which are generally
located on towers, basically repeat the messages received allowing the
message to reach its intended destination. Diagram 1 depicts the basic
components of a LMR system.




                                     2

       Diagram 1: Basic Components of a Land Mobile Radio System




      Source: OIG depiction of LMR system components

      The transmission between the various elements of a LMR system
consists of electromagnetic waves that travel along designated frequencies
of the radio spectrum. The radio spectrum is a fixed, limited resource
shared among government and nongovernment entities. This spectrum has
many uses in addition to public safety communications, such as television
broadcasting, AM/FM radio, mobile internet services, cell phones, and
aeronautical radio navigation. The explosion of personal wireless technology
devices such as cell phones has increased the demand for the limited
spectrum, which has in turn increased the need to maximize the efficient use
of the available spectrum.

      Major frequency ranges used for public safety communications include
the very high frequency (VHF) range and the ultra high frequency (UHF)
range. Although the Department’s components are assigned a variety of
frequencies, the majority are VHF. However, the DEA’s LMRs operate
primarily on UHF frequencies since, according to a DEA official these were
the frequencies that were available in 1972 when the agency was assigned
the spectrum. Most radios are designed to operate on one frequency,
making it more difficult for VHF and UHF users to communicate with each
other using current equipment.

      Interoperability is the ability of public safety agencies to communicate
with each other. Different and incompatible radio designs with different
technologies and configurations hamper such communications. In addition,
assignments of frequencies in different ranges have also hampered
interoperability. As a result, first responders and other public safety
personnel have adopted a variety of “fixes” to help improve interoperable
communications. While the most efficient form of interoperability is the use
                                        3

of a common radio system among all public safety personnel, it would be
very expensive to provide all public safety personnel with the same system.
Such a system would generally require the purchase of new radios and
transmission equipment, which for the Department and many public safety
organizations has proven cost prohibitive. As a result, the Department’s
agents and other public safety personnel continue to use less expensive
alternatives that are not the optimal solution to meet the interoperability
needs, including:

    	 Swapping radios: Agencies purchase and maintain extra radios that
       can be distributed to users whose radios are not interoperable with
       theirs. This approach requires an investment in additional radios and
       is currently used by the Department when components conduct
       operations with DEA.

    	 Patching: Two or more incompatible systems connect to a central
       system that translates the signals so that they can be received by
       the other systems. This allows the agencies to continue using their
       existing systems but requires twice as much spectrum because each
       system occupies separate channels.

    	 Shared channels: Agencies set aside or identify a specific channel or
       channels to use during joint operations and in emergency situations.
       This approach provides interoperable communications; however, it
       requires advance coordination and identification of the channel or
       channels. Furthermore, these channels can easily become congested
       in times of emergency.

Rekeying and Encryption Requirements

      The Department’s communications equipment must provide secure
communications. Secure communications are achieved through the use of
encryption that is periodically updated to ensure continued security. The
Advanced Encryption Standard was adopted in 2001 to replace the outdated
Data Encryption Standard. The Advanced Encryption Standard is an
encryption algorithm (a mathematical formula) designed to protect sensitive
information like law enforcement operations. A key is a code that is
programmed into a radio to allow encrypted communications within a
system. To ensure continued security, the key must be changed
periodically. The key can be changed over the air (remotely) through a
process known as over-the-air rekeying or manually requiring
reprogramming by a technician.
                                     4

       Manual reprogramming is a time consuming and disruptive process.
However, much of the department’s legacy equipment requires manual
rekeying. Merely replacing radios does not solve the rekeying problem
because both the radio and the related operating system must be over-the-
air rekeying capable for the functionality to work. As a result, new over-the-
air rekeying capable radios on the old system will not eliminate the need for
manual reprogramming.

Integrated Wireless Network History

        In 1993, the Department of Commerce’s National Telecommunications
and Information Administration (NTIA), the agency responsible for managing
the allocation of radio frequency spectrum for all federal users, mandated
that all federal spectrum users cut their frequency usage by one-half. In
response, the Department’s law enforcement components developed
individual plans to replace their land mobile radio systems. In 1998,
Congress directed that the Department base its narrowband conversion
initiative on a comprehensive strategy to increase spectrum efficiency, to
achieve communications interoperability among all Department components
and with other federal law enforcement agencies, and to maximize
efficiencies and savings through shared infrastructure and common
procurement strategies.3

Creation of the Wireless Management Office

      In a July 1998 Conference Report, the House Committee on
Appropriations recognized the need to meet the NTIA mandate but also
recognized the continuing interoperability problems of the law enforcement
communications system. In October 1998, Congress directed the
establishment of a department-wide narrow band program office to conduct
a baseline technical assessment of wireless communications to maximize
interoperability and resource sharing. Congress also established a
department-wide account to serve as the central funding source for the
conversion to narrowband radio communications. In addition, Congress
directed the Department’s Justice Management Division to serve as the
central purchasing agent for all Department communications equipment and
develop an integrated, department-wide strategic plan to meet the

      3
         Narrowbanding for federal agencies means reducing their 25-kilohertz wideband
channels in the Very High Frequency (162-174 Megahertz) and Ultra High Frequency
(406.1-420 Megahertz) land mobile bands to 12.5-kilohertz narrowband channels.

                                           5

narrowband conversion and interoperability requirements of the Department
and NTIA.

      In October 1998, the Attorney General issued a memorandum to
address the Department’s wireless communications issues, which directed
the creation of the Wireless Management Office (WMO) within the Justice
Management Division to oversee and direct the Department’s consolidated
approach to wireless communications and to centrally manage the
consolidated wireless account. The Attorney General’s memorandum
directed the WMO to:

       1. 	 Oversee an assessment of component system development plans,

       2. Complete departmental requirements analysis, and develop a
          technical design for the Justice Wireless Network,

       3. 	 Implement two pilot initiatives related to the development of the
            Justice Wireless Network, and

       4. 	 Develop a department-wide tool for consolidated radio purchases.4

       The WMO reports to the Department’s Chief Information Officer
through the Deputy Chief Information Officer for Policy and Planning. The
office is headed by a Program Director who is a component representative
selected on a rotating basis. The current director is an FBI representative
and the other components provide staff to fill other positions at the WMO.
The WMO has an authorized staff level of 35, with 21 staff on board as of
August 2011, and is responsible for the management of wireless
communication development including planning, acquisition, financial
planning, and technical services.

       The Attorney General also created the Wireless Communications Board
to ensure that the WMO received high-level guidance from the law
enforcement components’ operational community. The Department’s Chief
Information Officer chairs the Wireless Communications Board, which is
composed of senior managers from each of the components. The Wireless
Communications Board’s mission is to establish and oversee the general
policies of the WMO and to provide guidance for strategic policy,

       4
         The program was originally known as the Justice Wireless Network but was
renamed the Integrated Wireless Network (IWN). For simplicity, we will refer to the project
as the IWN program in this report.
                                             6

management, and budget issues to encourage successful consolidation of
the Department’s wireless networks.

      In September 2001, the Department awarded a contract to CTA
Communications, Inc., (CTA) to produce a report that identified the wireless
communications requirements for the Department’s components, converted
the requirements to a recommended plan, and developed a consolidated
approach to address the Department’s wireless communication needs. The
IWN program was expanded beginning in 2001 to ultimately include the
Treasury and DHS. In November 2001, the Department and Treasury signed
a Memorandum of Understanding to merge their independent pursuit of
solutions to meet the narrowband conversion mandate. Through this
merger, the Department and Treasury sought to improve communications
operability between themselves as well as with state, local, and other federal
law enforcement agencies and to achieve cost efficiencies while also meeting
the NTIA’s narrowbanding mandate. This resulted in an amendment to the
CTA contract to include the requirements of Treasury’s law enforcement
components.

      The 2002 CTA final report recommended an IWN design that included
a VHF, LMR design that used “trunking”, a computer-controlled system that
automatically allocates an open frequency from a pool of frequencies when a
user initiates a radio call. Using this design, the Department awarded a
contract to Motorola in November 2002 to acquire the necessary hardware,
software, and services for a pilot project to demonstrate the feasibility of the
proposed technology. The pilot project, called the Seattle/Blaine Pilot
Project, was initiated in the Seattle, Washington, area and became fully
operational in December 2004. The pilot was expanded beginning in 2005
and now covers the states of Washington and Oregon.

      The Seattle/Blaine pilot provided a trunked, interoperable network that
provided tactical wireless radio communications for over 600 federal users
from 5 federal agencies and was interoperable with state and local law
enforcement organizations. While the pilot project demonstrated the
feasibility of a government owned, managed, and operated integrated
wireless network and proved that the design technology it used was viable,
in 2004 the Department rejected this design for nationwide use. The
Department determined that while the design used in the Seattle/Blaine
project would adequately address current communication requirements, it
might not be flexible enough to meet changes in requirements or to
integrate rapidly changing and significant advances in new technologies.
Furthermore, the Department identified only one vendor capable of
                                       7

expanding the project nationwide. Without competition, the Department
believed that it would have sacrificed cost savings and technological
advantages. As a result, in July 2004, the Department instead initiated a
three-phase IWN acquisition strategy.

Creation of the Integrated Wireless Network Program

      After the agreement to pursue wireless communications options with
Treasury in November 2001, the Justice Wireless Network Program was
renamed the Integrated Wireless Network (IWN) to recognize the program’s
expansion outside of the Department. In addition, after the
September 11, 2001, attacks, changes in the structure of federal law
enforcement agencies required increased coordination among all law
enforcement agencies, and this was further affected by the creation of the
DHS in 2002. The formation of the DHS included the transfer of several law
enforcement agencies from the Department and from Treasury to DHS.
These agencies included Customs and Border Protection and Immigration
and Customs Enforcement, which were expected to continue to participate in
the IWN program. In addition, the ATF was transferred from Treasury to the
Department during this reorganization.

      As a result, in 2004, the Department, Treasury, and DHS entered into
a joint agreement to develop, implement, and manage the operation of a
joint wireless communications system to support federal law enforcement
and homeland security operations throughout the United States. The new
agreement established an IWN Executive Board and designated the Chief
Information Officers of the participating departments as the co-chairs.
According to the agreement, a consensus of the IWN Executive Board’s three
co-chairs was required for all decisions regarding the program.

      Since the Seattle/Blaine pilot yielded only one vendor capable of
expanding the project nationwide, the Department, Treasury, and DHS
developed a three-phase strategy that envisioned selecting a single
contractor as an integrator to implement IWN nationwide. Phase 1, the
pre-solicitation phase, identified offerors and assessed their potential to be
viable competitors. Four offerors were selected and they proceeded to
Phase 2.5 The four offerors submitted detailed technical, management, and
cost proposals. In Phase 3, two of the four offerors were awarded contracts


      5
        The four offerors were General Dynamics, Lockheed Martin, Motorola, and
Raytheon.

                                           8

to develop detailed system designs.6 In April 2007, at the completion of
Phase 3, the Department awarded General Dynamics the contract to serve
as the systems integrator for the nationwide implementation of the IWN
program.7

       The objective of the IWN contract was to deploy secure, interoperable,
and reliable radio communications capabilities to Department law
enforcement personnel. The contract with General Dynamics C4 Systems
(General Dynamics) was designed to support 80,000 agents and support
staff within the Department, DHS, and Treasury.8 According to the
Department, the plan was based on consolidating the existing Department
infrastructure and modernizing the disparate and disconnected LMR systems
across the Department's law enforcement components: ATF, DEA, FBI, and
USMS. This plan was designed to improve the communications capabilities
of the Department’s law enforcement personnel and achieve significant
improvements in operational effectiveness and agent safety. These
capabilities were intended to support a wide range of law enforcement
missions and enhance coordination with state and local law enforcement
during crises.

      In 2004, IWN was estimated to cost over $5 billion and its capabilities,
according to a Department official, were to include access to criminal
databases and broadband data, which were central to DHS services. In
contrast, those two requirements were not as critical to the Department
because of its need for improved communications capability and not
additional capabilities. Instead, the Department’s goals for the IWN
program focused primarily on the upgrade of the Department’s aging
communications systems, which it had planned to replace since 1998. Most
recently, the detailed 2008 IWN program plan was still primarily focused on
the Department’s need to upgrade its aging systems, and was expected to
cost $1.2 billion with implementation projected to be completed by 2016.

       6
          General Dynamics and Lockheed Martin were awarded contracts to develop
detailed system designs.
       7
         The contract is an Indefinite Delivery/Indefinite Quantity contract, which the
Department used to issue task orders for specific implementation phases. An Indefinite
Delivery/Indefinite Quantity contract is used when the government cannot predetermine,
above a specified minimum, the precise quantities of supplies or services they will require
during the contract period.
       8
         The DHS has the ability to use the contract but to date has chosen not to do so
because it is pursuing its own wireless network solution.

                                              9

The Department developed this modified plan because it expected Treasury’s
participation to be limited, and the DHS did not plan to continue participating
in the IWN implementation.

Law Enforcement Wireless Communications Account

      As previously discussed, the Attorney General created the WMO within
the Justice Management Division to oversee and direct the Department’s
consolidated approach to wireless communications and centrally manage the
consolidated wireless account, known as the Law Enforcement Wireless
Communications (LEWC) account. The LEWC account supports the
maintenance, consolidation, enhancement, and replacement of tactical radio
communication systems, special projects, and the IWN program for the
Department’s law enforcement agencies. The LEWC account does not fund
the wireless programs for the Bureau of Prisons because a budget is
developed for each Bureau of Prisons facility and the facilities do not
segregate the wireless funding like other Department components. In
addition, according to the Department, the LEWC account does not fund the
components’ Blackberry or cell phone services. Exhibit 1 shows the funding
for the LEWC account since FY 2000.




                                      10 

                                Exhibit 1
                   Law Enforcement Wireless/Narrowband 
                      Communications Appropriations    
                                         (in thousands)
 $250,000


 $200,000


 $150,000


 $100,000


  $50,000


      $0
            2000    2001   2002   2003    2004   2005   2006   2007    2008   2009     2010   2011

                   Law Enforcement Wireless/Narrowband Communications Appropriations

Source: The WMO

      According to the WMO Budget Officer, until FY 2010, the LEWC account
appropriations were a lump sum without formal designation of the allotment
for each of three sub-accounts: IWN, legacy system operations and
maintenance, and special projects. According to Department records,
through FY 2007, almost two-thirds of the appropriations were used for
legacy system maintenance. Our audit found that legacy system
maintenance continues to represent a large portion of the LEWC funding.

Prior Reports

      The Department of Justice Office of the Inspector General (OIG), the
National Telecommunications and Information Administration (NTIA), the
Government Accountability Office (GAO), and the National Commission on
Terrorist Attacks Upon the United States (9/11 Commission) have previously
reported on various topics affecting the Department’s implementation of the
IWN program. The reports are summarized below.


                                                 11 

Office of the Inspector General Report

      In March 2007, the OIG issued an audit report on the Department’s
implementation of the IWN program, which discussed the Department’s
legacy communication systems compliance with NTIA’s narrow banding
requirements.9 The report identified issues with IWN.

      The report found that the IWN project was at high risk of failing to
secure an integrated wireless network for the use by the Department,
Treasury, and DHS. The causes identified for the high risk of failure
included: (1) uncertain funding for the project, (2) disparate departmental
funding mechanisms that allowed the departments to pursue separate
wireless communications solutions apart from IWN, (3) the fractured nature
of the IWN partnership, and (4) the lack of an effective governing structure
for the project.

       The report recommended that:

       1. The Department establish an agreement with the Treasury
          and DHS that reflects each agency’s commitment to the IWN
          program;

       2. If the departments were unable to reach agreement on a
          unified approach, that the Department notify Congress and
          the Office of Management and Budget that the IWN program
          is not viable as a joint project with the DHS, and that the
          Department and Treasury are pursuing their own IWN
          strategy to meet their department’s wireless communications
          requirements;

       3. If the Department was unable to reach agreement on a
          unified approach with the Treasury and DHS, the Department
          should develop and implement a departmental plan to
          upgrade its legacy wireless communications systems; and

       4. The Assistant Attorney General for Administration ensure that an
          agreement is reached that allows the Department to continue its


       9
         U.S. Department of Justice Office of the Inspector General, Progress Report on
Development of The Integrated Wireless Network in the Department of Justice, Audit
Report 07-25 (March 2007).

                                            12 

             wideband operations on very high and ultra high frequencies
             without interference.

     This report includes an assessment of the Department’s progress
implementing the previous recommendations and resolving the concerns
noted in the prior report.

National Telecommunications and Information Administration

      In October 1993, the NTIA issued a report on its analysis of the
Federal land mobile infrastructure with respect to spectrum efficiency and
cost effectiveness. The NTIA found:

        1. The rapid growth in the demand for land mobile services was
           reflected in the doubling of Federal land mobile frequency
           assignments between 1980 and 1992;

        2. Federal mission requirements mandated by the Congress and
           the President have few counterparts outside the federal
           government, although state and local government missions
           and corresponding uses of the radio spectrum in support of
           these missions are similar in many ways; and

        3. Federal LMR systems used a wide range of equipment types
           in a variety of geographic environments for voice and data
           communications.

        As a result, the NTIA recommended that policies be implemented
     10
that:

   	 limit the authorizations to agencies to operate their own land mobile
      systems;

   	 require the use of spectrum-efficient and cost-effective technologies to
      meet mission requirements where commercial services and services
      obtained from other agencies cannot be used;



        10
          U.S. Department of Commerce NTIA, Land Mobile Spectrum Efficiency: A Plan for
Federal Government Agencies to Use More Spectrum-Efficient Technologies, NTIA Report
93-300 (October 1993).

                                          13 

   	 withhold frequency assignments for Government land mobile radio
      stations that do not meet the goal of making efficient and cost-
      effective use of the spectrum; and

   	 regularly review the results of current experiments, and revise as
      necessary policies and procedures that permit commercial vendors
      access to Federal spectrum to provide land mobile services to the
      Federal Government.

U.S. Government Accountability Office Reports

      In December 2008, the GAO issued an audit report on IWN that
assessed progress made by the Department, Treasury, and DHS to develop
a joint radio communications solution.11 The GAO reported that the three
departments were no longer pursuing IWN as a joint development project
primarily because they did not effectively employ key cross-agency
collaboration practices. Instead, each agency had begun independently
modernizing its own wireless communications systems. Specifically, GAO
found that the departments (1) could not agree on a common outcome or
purpose to overcome their differences in missions, cultures, and established
ways of doing business; (2) had not established a collaborative governance
structure with a process for decision making and resolving disputes; and
(3) had not developed a joint strategy for moving forward. While GAO did
not recommend any executive action, it noted that given the critical
importance of improving radio communications among federal agencies,
Congress should consider requiring that the Department, Treasury, and DHS
employ key cross-agency collaboration practices to develop a joint radio
communications solution.

      An earlier GAO report issued in April 2007 identified issues with
implementing a nation-wide communications plan and the standards in place
at that time. The GAO assessed whether DHS funding and technical
assistance had helped to improve communications interoperability in
selected states, and it assessed the progress in the development and
implementation of interoperable communications standards.12 The GAO

      11
          U.S. Government Accountability Office, Radio Communications: Congressional
Action Needed to Ensure Agencies Collaborate to Develop a Joint Solution, GAO-09-133
(December 2008).
      12
         U.S. Government Accountability Office, First Responders: Much Work Remains to
Improve Communication Interoperability, GAO-07-301 (April 2007).

                                          14 

found that no national plan was in place to coordinate the investments and
ambiguities existing in the national standards, which led to incompatibilities
among different vendors’ products. These standards, known as Project 25
standards, are a suite of national standards intended to enable
interoperability among the communication products of different vendors.
The GAO also noted that the DHS had strongly encouraged grantees to
purchase Project 25 radios, which were substantially more expensive than
non-Project 25 radios.

National Commission on Terrorist Attacks Upon the United States

      In July 2004, a report issued by the National Commission on Terrorist
Attacks Upon the United States (9/11 Commission) also addressed
communications problems, including the limited range and functionality of
radios, limited access to agency wide channels, ineffective central
communication, and available channels that were taxed beyond their
capacity.13

      The 9/11 Commission found that the radios did not function in
buildings as large as the World Trade Center and that the range of the
available local channels was limited to the immediate vicinity of the local
command. Some radio users could not access the agency-wide channel
because they either did not have the channel number or they had the wrong
number. In addition, the channels were not monitored by a dispatcher who
could prioritize calls or pass on information to radio users. Furthermore,
there were no standard operating procedures in place to direct who should
be communicating during the attacks. As a result, the available
communication channel was overwhelmed, resulting in unintelligible
communications.

      The 9/11 Commission concluded that “The inability to communicate
was a critical element at the World Trade Center, Pentagon, and Somerset
County, Pennsylvania crash sites, where multiple agencies and jurisdictions
responded. Since this problem occurred at three very different sites, the
9/11 Commission found that there is strong evidence that compatible and
adequate communication among public safety organizations at the local,
state, and federal levels is a significant problem.”



      13
        National Commission on Terrorist Attacks Upon the United States (9/11
Commission), The 9/11 Commission Report (July 2004).

                                          15 

               FINDINGS AND RECOMMENDATIONS 


I. 	   LIMITED PROGRESS ON ACHIEVING INTERAGENCY
       INTEROPERABILITY

       The Department has achieved limited communication
       interoperability with other federal, state, and local law
       enforcement agencies due to frequent changes in the IWN
       program’s development approach resulting from uncertain
       program funding. Beginning in September 2009, the
       Department, Treasury, and the U.S. Park Police participated
       in the deployment of the National Capital Region (NCR)
       module of the IWN implementation to the District of Columbia
       and portions of Virginia and Maryland. In addition, the
       Department’s Wireless Management Office created a separate
       project called the High-Risk Metropolitan Area Interoperability
       Assistance Project to facilitate interoperability through
       dedicated channels for emergency use during a major
       incident. As of August 2011, 23 cities have at least 1
       federally funded interoperable channel. However, the limited
       interoperability achieved is grossly insufficient to adequately
       address the communication challenges law enforcement
       personnel continue to face during joint operations and in
       emergency situations.

Interoperability

       As previously discussed, in July 2004, the Department, Treasury, and
DHS began a three-phase IWN acquisition strategy designed to implement
IWN nationally, resulting in a contract award in April 2007 to General
Dynamics as the systems integrator and in a revised agreement in 2008 to
jointly develop and implement IWN nationwide. However, since that time,
the DHS has not participated in the planning or implementation of IWN using
the General Dynamics contract because it has chosen to pursue its own
solution to its wireless communication needs. Below we describe the
Department’s limited progress towards achieving interagency communication
operability and the current status of IWN implementation.

National Capital Region Initiative

     The National Capital Region (NCR), which has the Department,
Treasury and the U.S. Park Police as participants, is the first module of the
                                     16 

IWN project to be implemented using the results of the three-phased
acquisition strategy and the revised development plan.14 This module was
also the first IWN implementation to use General Dynamics as the system
integrator. The NCR includes the District of Columbia and portions of
Virginia and Maryland. According to the Department, General Dynamic’s
planning for this module began in August 2007 and actual deployment began
in September 2009 using Harris equipment for the infrastructure and
Motorola for the radios.15

      Notably absent is the DHS, which did not participate in the planning or
implementation of this module because it decided to pursue its own
communication solution. The NCR system is still undergoing testing and is
discussed further in Finding II.

High-Risk Metropolitan Area Interoperability Assistance Project and
Interoperable Channels

      Seamless interoperability between federal, state, and local agencies
would require each agency to be on the same system. Short of this, a
common solution is to employ dedicated channels. To improve
interoperability, the Wireless Management Office (WMO) created the High-
Risk Metropolitan Area Interoperability Assistance Project (Project) in 2003.
This Project was a $25 million program funded by the WMO to provide
federal law enforcement and homeland security agencies with basic inter-
systems communication for emergency situations.

       The Project was designed to facilitate interoperability through basic
inter-systems communications for emergency use during a major incident,
as well as to provide agents with the ability to connect with key local
authorities (such as fire, police, and emergency medical services) in
metropolitan areas that are the most likely attack targets. According to the
Department, in order for users to have confidence in the dedicated channels,
participating agencies are encouraged to use the channels for day-to-day
assignments.



       14
            The Department of the Interior U.S. Park Police is participating in the NCR
initiative because of their large presence in the area and the availability of frequency
assignments.
       15
        Harris is the selected vendor for the NCR infrastructure, which includes the
components such as repeaters and base stations, but not the radios.

                                              17 

       As of August 2011, there are 29 metropolitan cities included in the
Project and 23 of the 29 cities have at least 1 interoperable channel. The
remaining six cities do not have a federally sponsored interoperable channel.
The 2010 revised IWN plan would continue to concentrate the Department’s
efforts to improve interoperability in these cities. However, with the
expected reduction in WMO funds and the elimination of the Project, this
program will not be expanded further.

     While the Project is no longer funded, the revised IWN plan has a
component that will provide for interoperable communications in high risk
metropolitan areas with high concentrations of agents. However, with the
expected reduction and ultimate elimination of IWN funding this component
may also be eliminated.

The Integrated Wireless Network Is Not Integrated With Other Agencies

       Although the Department, Treasury, and DHS revised their 2004
agreement in January 2008 to implement interoperability and to share
resources and resource contributions, the agreement did not mandate joint
participation. The revised agreement was supposed to solidify each agency’s
participation in the IWN program by clearly defining the responsibilities,
resources, and funding requirements for each department. However, we
found that it has not resulted in increased DHS participation and Treasury’s
future participation in the IWN program is expected to be limited. DHS
officials told us that DHS has already upgraded some of its communications
systems and it plans to continue upgrading its communication systems
outside of the IWN program. Currently, the primary interaction between the
Department and DHS staff is their participation on federal interoperability
committees to address interoperability concerns. Treasury is participating in
the current IWN phase but Treasury officials told us that Treasury has no
voice in the management of IWN and it will not participate in future phases.

      Although IWN was originally envisioned as an integrated system, the
current IWN program will not encompass the entire federal law enforcement
community as originally planned. In fact, Department officials said that the
original IWN system concept and implementation plan bears little
resemblance to the current IWN design and approach. According to the
Department’s Chief Information Officer and the Program Executive,
competing priorities and requirements among federal agencies proved
impossible to overcome. Department officials have also emphasized that
irregular and inconsistent program funding, a matter outside the
Department’s control, has required changes to the scope, objectives, and
                                     18 

deployment approaches for the IWN program. In spite of these
uncertainties, the Department has deployed upgraded systems in the
Northwest (Seattle/Blaine pilot expanded), is working to deploy the NCR,
provide upgraded radios to all agents, and upgrade systems as the budget
allows. In addition, the Department has used its High Risk Metropolitan
Area Interoperability Assistance Project to provide interoperability in 29
metropolitan cities. Department and DHS officials have stated that because
of different operational priorities and continued deterioration of their own
legacy systems, they will continue to pursue independent solutions to their
communications issues.16

      Yet, the need for interoperability that IWN could provide was cited by
the GAO and 9/11 Commission as a critical need for emergency and law
enforcement personnel. While the delays in implementing IWN were
problematic for the participating agencies, their decisions to pursue their
own wireless solutions have resulted in a lost opportunity. As we stated in
our 2007 report:

       Failure of the IWN project will represent significant opportunities to
       achieve cost and spectrum efficiencies and needed communications
       interoperability between federal law enforcement agencies. In
       addition, because the Department plans to use IWN to address its
       narrowband requirements, failure of the program will require the
       Department to seek alternative solutions such as a department-wide
       network or a network developed by the Department and Treasury.

Lack of Interoperability Plan

      The Department Investment Review Board is responsible for providing
Department level oversight of major information technology investments and
ensuring that component investments are aligned with the Department’s
strategy.17 In October 2009, the Department Investment Review Board held
a meeting with Department and component officials to discuss the current
status and direct the future planning of the IWN program. During this
meeting, the Department Investment Review Board directed the WMO to

       16
          Department and DHS officials told us that Congress is aware that the agencies are
pursuing separate solutions to their communications needs.
       17
            The Department Investment Review Board is a group of senior Department
officials with information technology and financial management chaired by the Deputy
Attorney General and vice-chaired by the Department’s Chief Information Officer.

                                            19 

report on the plan for ensuring the IWN program is interoperable with other
federal, state, tribal and local wireless systems. In the April 2010
Certification Review presentation to the Department Investment Review
Board the WMO treated the interoperability issue as resolved, stating:

       The IWN system is designed to ensure interoperability across
       federal law enforcement agencies and at the state and local
       level. The design incorporates open standards adoption, Project
       25 (P25) and includes land mobile radio (LMR) interoperability
       gateways that enable any law enforcement agency, regardless of
       the P25 compliance of agency equipment, to connect to the IWN
       system.18

      However, the summary of the October 2010 Department Investment
Review Board meeting highlights that interoperability was a concern. As a
result, the Board required the WMO to brief the Deputy Attorney General on
the status of the IWN interoperability. When we asked about the
Department Investment Review Board’s concern, a WMO official who
oversees the WMO’s interoperability efforts told us that he was not aware of
the Board’s request; but he said he would work with other WMO officials to
create a plan.

      The Board’s requests for briefings and an interoperability plan
demonstrated the importance for Department and non-Department law
enforcement officials to seamlessly communicate through wireless channels.
While the WMO’s original plan called for IWN to be interoperable, given the
current uncertain status of the IWN project, the ability of the Department to
achieve interoperability is jeopardized and alternatives must be considered.




       18
          Project 25 (P25) is an effort to develop industry-wide standards for manufacturing
interoperable digital two-way wireless communications products that enable emergency
responders to exchange critical communication using a land mobile radio (LMR) system.

                                            20 

II. 	 STATUS OF THE IWN PROGRAM’S IMPLEMENTATION WITHIN
      THE DEPARTMENT

     The Department has made limited progress in upgrading the
     land mobile radios (LMRs) operated by its components. The
     current equipment used by the Department’s law enforcement
     components to support daily operations is in many cases
     obsolete, unsupportable, and does not meet the requirements
     for operability. For example,     percent the FBI’s and
         percent of the DEA’s systems are, on average, over
     15 years old, and maintaining these systems requires
     increasing amounts of available funds each year. In addition,
         percent of the DEA’s and     percent of the FBI’s land
     mobile radio systems do not meet the Department endorsed
     encryption standards. Law enforcement agents engaged in
     operations involving multiple components continue to
     communicate using separate radios, or manually reprogram
     currently operated radios, resulting in slower operational
     response times.

     In addition, several concerns we raised in our 2007 audit
     report have not been resolved. The IWN program continues
     to be hampered by uncertain funding, shifting priorities, and
     WMO governance issues. Originally designed for completion
     in 2010, revised plans resulting from budget constraints and
     program delays call for a scaled-back version of IWN to be
     completed in 2016. The delays in implementing the IWN
     program affect not only interoperability among different
     agencies but also the ability of law enforcement officers within
     the same component to communicate with each other
     because of outdated and aging equipment. Furthermore,
     Department and WMO officials told us that current budget
     plans propose suspension of the IWN program, resulting in
     further delays in replacing the aging equipment and
     continuing non-compliance with security requirements.

Components’ Land Mobile Radio Systems

      As previously discussed, the IWN program was established in 1998 in
response to the Department’s need to upgrade LMR systems within its law
enforcement components. Thirteen years and $356.7 million dollars later,
the condition of the Department’s LMR systems remains poor.
                                     21 

       In order to achieve interoperability, the components must upgrade
their LMR systems. The components will first have to replace the radios and
then upgrade the radio system infrastructure such as the repeaters,
antennas, and base stations. According to Department officials, this is the
current focus of the Department’s IWN project. While we recognize the
Department’s funding constraints, we believe it is critical that the
Department upgrade to reliable and secure communication systems.

Operability Has Not Been Achieved

       According to the Department its law enforcement missions require
wireless communications that: (1) provide coverage wherever agents
operate, (2) must be encrypted for security, (3) are reliable, (4) are
interoperable with other federal, state, and local law enforcement agents,
and (5) are flexible enough to meet the different missions. According to the
Department,       percent of FBI,    percent of DEA, and       percent of ATF
LMR systems do not meet some or all of these requirements. WMO officials
told us that since our 2007 audit, operational communications among
individual components remains a challenge due to: (1) individual radio
systems with limited compatibility and few common federal communications
channels, (2) continued use of legacy equipment that does not meet security
encryption requirements or industry standards and is not capable of over-
the-air rekeying, and (3) components’ systems reliance on different
frequency ranges.

     Shortcomings of Legacy Equipment

       In our 2007 report, we reported that the Department’s wireless
communication consisted of multiple LMR systems with infrastructure that is
15 to 20 years old. Over the years, the performance of these systems has
degraded in terms of coverage, reliability and usability. During our review,
we noted that         of the Department’s         LMR system sites were no
longer supported by the manufacturer, which means spare parts are difficult
to find and maintenance is essentially a “custom service.”

     During our audit, we found that the LMRs operated by the
Department’s components have not been fully updated to meet the
compliance standards established by the National Institute of Standards and
Technology and NTIA. Additionally, we found that both the FBI and DEA rely



                                     22 

significantly on legacy systems that are considered obsolete.19 We found
that both the FBI and DEA utilize systems that are, on average, over
15 years old. WMO officials told us that maintaining these systems requires
increasing amounts of the available Law Enforcement Wireless
Communications account funds each year.

       We also found that the ATF, DEA, and FBI relied on systems in which
communications made during operations were unsecure due to unencrypted
communications equipment or the inability to periodically change the
encryption key to ensure its security. Specifically, we found that        of
the ATF’s systems met the Advanced Encryption Standard adopted by the
U.S. Government in November 2001 to protect sensitive information, due to
the fact that not all of their radios are capable of supporting the Advanced
Encryption Standard.20 ATF continues to use the Data Encryption Standard
on their systems to provide some level of protection for sensitive
information. The new standard adopted by the Department recommends
voice message encryption and the encryption key to be changed frequently
for increased security. We found that        percent of the DEA’s and 

    percent of the FBI’s LMR systems did not meet that standard.


      We also found that many of the LMR systems used by the ATF, DEA,
and FBI could not perform over-the-air rekeying, the process where the
encryption key in the system is changed remotely to allow continued
security.21 Without this feature, a technician must manually rekey the
radios. As Exhibit 2 shows, the existing LMR equipment is outdated and
suffers from significant functionality issues. A detailed discussion of the
status of these components' LMRs follows.




       19
         For purposes of this audit, obsolete systems are systems that are no longer
supported by the manufacturer or the manufacturer is unable to supply spare parts.
       20
          Advanced Encryption Standard is an algorithm capable of using cryptographic
keys of 128, 192, and 256 bits to encrypt and decrypt data in blocks of 128 bits. It is
considered more secure than Data Encryption Standard, which it replaced.
       21
          Over–the-air rekeying would allow a law enforcement agent to receive an updated
encryption code rather than requiring manual reprogramming by a radio technician.

                                            23 

                                   Exhibit 2 

                Current Condition of Components’ LMR Systems 

                              As of August 2011 


                                                   Percent of
                                                    Systems        Percent of
                                 Percent of          Lacking        Systems
                                  Systems          Advanced         Lacking
                                  that are         Encryption     Over-the-air
              Component           Obsolete          Standard       Rekeying
                 FBI
                 DEA
                 ATF
            Source: The ATF, DEA and FBI

      Federal Bureau of Investigation. According to FBI officials, the FBI has
approximately 3,000 LMR system sites, more than any other Department
component, and the average age of the FBI sites is 15 years old.22
Approximately           of the FBI’s LMR system sites are not supported by
the manufacturer. According to FBI officials in charge of the tactical
communications systems,         percent of FBI radios are based on the Data
Encryption Standard implemented by the National Institute of Standards and
Technology in 1977.23 However, as discussed above, the Department no
longer endorses Data Encryption Standard because Advanced Encryption
Standard provides better communications security. We believe the FBI
should be using Advanced Encryption Standard because of its increased
security. In addition, the          sites that are not supported by the
manufacturer also either lack the Advanced Encryption Standard or over-
the-air rekeying capability or both.




       22
          LMR system sites are anything but the radios. They include the base stations,
repeaters, and towers. They are the basic backbone of the system and encompass all the
things that make the radios work.
       23
          Data Encryption Standard specifies a cryptographic algorithm for encrypting
(enciphering) and decrypting (deciphering) binary coded information. The algorithm
described in this standard specifies both enciphering and deciphering operations, which are
based on a binary number called a key. A key consists of 64 binary digits ("0"s or "1"s) of
which 56 bits are randomly generated and used directly by the algorithm.

                                            24 

       U. S. Marshals Service. The USMS Deputy Assistant Director for
Information Technology stated that the radios the USMS agents use are not
interoperable. He said that the delays in implementing IWN impact
investigations because the aging equipment is outdated and could fail during
a critical stage in the investigation. He told us that the USMS has purchased
radios without WMO approval because emergent needs for the equipment
require the Marshals Service to buy it when necessary.

       While the ATF, DEA, and FBI have their own legacy systems, the USMS
primarily uses the FBI LMR system sites. However, the consolidation of
USMS systems with FBI systems is not complete and continues to lack
updated management documentation. USMS officials said that the FBI and
USMS must rely on 10-year-old guidance to reach agreements in each USMS
district and FBI office. According to USMS officials, a drawback to this
consolidated system is that if the FBI believes it is being inconvenienced
because the USMS is using its system, the FBI can prevent the USMS from
using it. For example, a USMS official recounted a situation in Virginia,
where the USMS and FBI share a LMR system. The FBI Telecommunications
Manager required the USMS to ask permission each day the USMS needed to
use the system. Ultimately, the FBI disabled five USMS radios because it
said there was too much traffic. The USMS Chief Inspector for the Tactical
Operations Division said that the USMS does not have another option and
the current arrangement jeopardizes the safety of USMS agents. According
to the FBI, several attempts were made by the FBI to identify the users and
radios were only disabled after the USMS users failed to properly identify
themselves.

       Drug Enforcement Administration. The DEA currently has 800 LMR
system sites in the United States, with an average age of 15.8 years. In
addition, the DEA operates almost exclusively on ultra high frequency (UHF),
which requires its personnel to use multiple radios or dual banded radios to
communicate with agents from the other components who operate on a very
high frequency (VHF). However, when excluding the three DEA LMR
systems that were updated in 2009 as a result of the Hurricane Katrina
natural disaster, the average age of its LMR systems jumps to over 18 years.
Over two-thirds of the DEA’s LMR systems are obsolete, operating on an
analog rather than a digital frequency. Additionally, according to a WMO
Assistant Deputy Director, the maintenance of DEA LMR systems is
becoming increasingly difficult because even the system’s manufacturer has
difficulty finding parts to repair the systems.



                                     25 

       According to DEA officials, three major DEA field offices - Chicago,
Detroit, and St. Louis - are operating with systems over 25 years old. These
three systems are still operating with analog equipment, which uses a
continuous stream of electrical signals that are easily disrupted by storms
and other atmospheric disturbances. While about one-third of the DEA’s
LMR system sites are digital, not all of the radios used to communicate with
those LMR systems work because the DEA equipment is not compliant with
the industry standard allowing interoperability between different radio and
system manufacturer’s equipment. DEA officials told us that in some offices,
DEA agents have to carry three radios so that they can communicate with
other agents from within the DEA and from other federal agencies because
their differing UHF and VHF radio frequencies and equipment are
incompatible. As a result, agencies working on joint operations with the DEA
often have to lend radios for joint operations with the DEA. For example,
ATF officials explained that when they work with the DEA, the ATF must lend
radios to DEA agents because the DEA’s radios are UHF and the ATF’s radios
are VHF. The current plan is for the DEA to transfer to VHF, but this transfer
could take years and will require parallel systems until the transition is
complete.

      Bureau of Alcohol, Tobacco, Firearms and Explosives. The ATF
maintains 300 LMR system sites. According to the ATF,     percent of ATF
base stations,    percent of portable radios, and  percent of mobile radios
do not have the Advanced Encryption Standard capability.

      According to ATF officials, when the FBI and ATF collaborate on cases,
they share radios or would have to reprogram radios to the other
component’s frequency and also share encryption keys to establish secure
communications. In contrast, the IWN program envisioned that radio
capabilities would allow the agents to automatically establish secure talk
groups. In other words, if the ATF needed to communicate with the FBI,
both would be able to access a specific shared frequency and encryption key
and communicate without exposing their conversation to unauthorized
access, which happens when the communication channels are unencrypted.

      Purchasing and Maintaining Legacy Systems

      A large portion of the funding provided to the WMO is used to maintain
the existing legacy LMR systems. While the plan is to eventually replace
these legacy systems, the Department’s law enforcement agents require
functioning and reliable equipment now. We found that since FY 2005 the
WMO has disbursed an increasing amount of the Department’s wireless
                                     26 

equipment funds to the components to maintain their legacy systems rather
than to replace their systems with updated equipment. Exhibit 3 shows the
WMO’s breakdown of the LEWC account spending by category since FY 2005.


                                  Exhibit 3
                            WMO Compilation of Costs
                                     FYs 2005 - 2010
                                        (millions)
       $100

        $80

        $60

        $40

        $20

         $0
               2005         2006     2007         2008      2009        2010

                      IWN    Legacy LMR Systems      Special Projects

     Source: The WMO

       While the 2007 IWN plan projected spending $200 million per year on
IWN implementation, FY 2009 was the only year the LEWC budget reached
that amount. However, in FY 2009 less than half of the funds were used for
the IWN project. In contrast, since FY 2005 funds spent on legacy LMR
systems accounted for more than half of the total spending. In fact, in 2008
the expenditures on legacy systems were 79 percent of available funds. As
the legacy systems age, the cost to maintain them increases. This expense
will continue because legacy systems will be required for operational reasons
until the new system is operational nationally.

Implementation of the National Capital Region (NCR) Module

      The NCR is part of the IWN nationwide implementation. The NCR
Module’s system is being deployed by General Dynamics, the systems
integrator, who was awarded the contract in April 2007. Harris Corporation
provides the infrastructure equipment, such as the base stations and
repeaters, and Motorola supplies the radios. The IWN system in the NCR did
not receive government acceptance until January 31, 2011, although
originally planned for October 29, 2010, because of conflicts between the
Harris Corporation infrastructure and Motorola radios identified during
                                       27 

Systems Acceptance Testing, and the re-introduction of the Operational Test
and Evaluation period into the IWN program schedule.24 The additional
tasks extended the time required for IWN implementation for the NCR.

      According to the Project Manager, during the October 2010 Systems
Acceptance Testing, testing showed a system anomaly between the Harris
Corporation infrastructure and Motorola radios. The Harris Corporation
network was broadcasting different signal formats from the signal formats
the Motorola radios use, which resulted in significant performance issues
such as lost radio transmission signals. The WMO initially refused
acceptance of the system. However, the WMO ultimately accepted the
system after Motorola and Harris Corporation resolved the technical issues.
The Project Manager told us that there remain insignificant technical issues,
such as incomplete site security assessments and inability to perform local
vulnerability scans, which are still being resolved.

      The WMO Project Manager explained that the WMO removed the
Operational Test and Evaluation period from General Dynamics's bid on the
NCR deployment task in order to reduce costs. The WMO Project Manager
told us that although the WMO engineering staff believed this was a bad
idea, the Wireless Communications Board concurred with the decision.
According to WMO project officials, the Wireless Communications Board’s
decision to perform the Operational Test and Evaluation in-house was made
to reduce costs and allow objective testing of the contractor-developed
system. WMO officials do not believe the decision to perform the
Operational Test and Evaluation in-house affected the identification of the
technical issue discovered during the week of the planned Initial Operational
Capability. However, the project was delayed while Motorola and Harris
Corporation worked to devise and implement their respective solutions to
resolve the technical issue.25 In March 2011, the WMO began placing test
users from each of the user organizations onto the system for a planned
Operational Test and Evaluation period. As of October 2011, the system is

       24
          Systems Acceptance Testing is often the final step before rolling out a system.
The focus is on testing the functionality and usability of the system in the operational
environment.

        Operational Testing and Evaluation is the formal testing conducted by technical users
prior to deployment to evaluate the operational effectiveness and suitability of the system
with respect to its mission.
       25
           Initial Operational Capability is the first time the intended users are able to
effectively use the system.

                                               28 

still undergoing testing and resolution of technical issues identified during
the testing.

      The WMO Project Manager said he considers the IWN portion of the
system to be fully operational because the interoperability issues between
the Harris Corporation infrastructure and the Motorola radios have now been
resolved. However, we do not believe that the NCR IWN can yet be
considered fully operational because the Department is still testing NCR IWN
and it has not yet been deployed to all users to ensure it performs as
expected.

Users’ Concerns about the National Capital Region’s Design

      During our audit, the components and the WMO expressed concerns
about the design of the IWN system implemented in the NCR. Their
concerns ranged from the lack of redundancy, which would allow continued
usage in case of a partial system failure, to the absence of a consolidated
dispatch center. In addition, some components told us that coverage issues
have not been completely addressed. According to WMO officials, most of
these design concerns result from the design decisions made by the Wireless
Communications Board as a result of funding constraints and other
considerations.

       According to the Operations and Maintenance Section Chief, the WMO
did not build circuit redundancy into the NCR sites, meaning that if a circuit
was lost the system would have no backup plan. According to WMO officials,
the NCR was instead designed with overlapping towers to allow for such
redundancy, rather than relying on circuit redundancy. Again, this decision
was made due to financial constraints as the Wireless Communications
Board opted for the overlapping tower coverage, which was determined to
be cheaper than circuit redundancy. In addition, the Operations and
Maintenance Section Chief also told us that licenses, leasing sites, and
funding were all constraints to implementing the optimal IWN system. He
explained that local authorities approve licenses to put equipment on a
tower or establish a base station. Since the government does not generally
own towers, it must negotiate leases for the use of the towers and
installation of other equipment. These leases can be very expensive and
some sites have been eliminated due to funding concerns. The FBI’s Radio
Systems Development Unit Chief explained that redundancy and other
similar measures are features that allowed some communications systems to
continue to work during the September 11 attacks.

                                       29 

       FBI and USMS officials and the WMO engineer also stated that IWN
does not have a consolidated dispatch center. A consolidated dispatch
center is especially useful for communicating with large numbers of users
instantly and in emergency situations. The USMS National Program Manager
for Radio and Communications stated that the lack of a consolidated
dispatch center is a problem because of increases in violence committed
against agents in recent years and a crucial need for better communication
capabilities. He stressed the importance of a consolidated dispatch center as
part of the communications solution in that it provides access to multiple
agents and increases the likelihood of prompt response in an emergency
situation. Members of the WMO Project Management Team told us they
agreed that this feature is required for successful interoperability solutions.
The consolidated dispatch center issue was discussed during the November
and December 2010 Wireless Communications Board Meetings when several
issues regarding cost and security of individual components’ radio
transmissions were raised. According to WMO program officials, the
Wireless Communications Board determined that the consolidated dispatch
center was too costly and, given the limited funds available, will not be
incorporated into the NCR module. They also cited the availability of
individual component centers that they believe will fulfill this function.

      A USMS official stated that there are many uncertainties with the NCR
module because this is the first system Harris Corporation has built for the
IWN project. ATF officials expressed concerns that agents in the NCR will
use unsecured technology if radios become ineffective as ATF Washington
Field Division’s territorial boundaries extend beyond the area covered by the
NCR. For example, agents driving out of radio range could end up using
non-secure communication (cell phones). Similarly, the USMS National
Program Manager for Radios and Communication told us that his biggest
concern with the NCR’s operability is uncertainty about how agents or others
from outside of the NCR will be able to communicate with agents stationed
within the NCR. This official said that as a result, the USMS has requested
more radios than needed for its staff located in the NCR.

      In addition, the components are not committed to transition to IWN
within the NCR. According to the WMO, DEA, and USMS officials, the DEA
and USMS are waiting to learn whether IWN will be built in the areas
surrounding the NCR. USMS officials told us that the USMS will not
transition if the areas of coverage are not better than their current coverage.
The FBI’s Radio Systems Development Unit Chief also told us that the FBI
does not plan to transition for approximately 2 years, or sometime in 2013.

                                      30 

As a result, both the IWN and legacy systems will need to be maintained and
operated.

      We understand the components’ reluctance to commit to the new
system until they are sure that it is functioning properly and is providing
acceptable geographic coverage. The NCR operational area does not
coincide with the operational boundaries of the components. Therefore, the
usefulness of the NCR portion of IWN will be limited until the remaining
portions of Region 1 are completed. However, we believe that the
components’ reluctance to commit to the new system is not affecting the
progress of the program’s implementation because the staggered transition
to the new system was part of the IWN program plan.

       The Omnibus Appropriations Act of 2009 required IWN to be certified
by the Department Investment Review Board before funds were made
available for FY 2009. The process required the Department Investment
Review Board (Board) to certify that the program had appropriate program
management and contractor oversight mechanisms in place, and that the
program was compatible with the Department’s enterprise architecture. The
Board has certified the NCR portion of IWN with qualifications because
currently there is no comprehensive funding model, contract strategic plan,
or Disaster Recovery Plan, even though, according to the Board minutes, the
Board first requested these items in October 2009. According to WMO
officials, those items are currently in draft.

       In March 2010, the Wireless Communications Board also requested
that the WMO conduct and report on the results of contingency planning at
each WCB meeting. Such contingency planning would demonstrate the
Department’s ability to deploy IWN without a systems integrator because
program costs and budget constraints have made that necessary. According
to the Wireless Communications Board, the contingency plan should
demonstrate the Department’s ability to deliver IWN solutions to the field
working directly with LMR vendors. We found no evidence that the
contingency plan was addressed at the later meetings, but we were told by
the WMO’s Chief of the Operations Section that a contingency plan is in
draft.

      Contingency planning reasonably anticipates future events that are not
expected to occur but are possible. Should those events occur, a plan of
action to respond effectively should be in place. Since the current plan is to
continue IWN development without the systems integrator, we believe that it

                                     31 

is critical for the Department to demonstrate that it is capable of performing
the functions previously performed by the systems integrator.

Other Issues Affecting the IWN Project

      Other management and project development issues plague the IWN
program’s implementation including: (1) frequent management turnovers at
the WMO that have disrupted program development and resulted in
confusion over program priorities and (2) funding delays that have extended
the program timeframes and caused significant program changes. While the
goal remains clear—to create a secure, interoperable communication
system—how to accomplish this goal is anything but clear. These issues
were also addressed in our 2007 report and continue to present challenges
to the successful completion of the IWN program.

Governance Issues at the Wireless Management Office

       Since 1998, staff turnover at the WMO has presented a challenge to
the IWN program. According to the WMO Budget and Finance Section Chief,
there have been four Program Executives, eight Program Directors, three
Deputy Directors (between 1998 and 2001 and again from 2003 to 2009,
there was no Deputy Director), and four Assistant Deputy Directors.26 The
Program Executive also serves as the Deputy Chief Information Officer for
Policy and Planning. As the IWN Program Executive, he provides high-level
guidance and serves as the liaison for the IWN program within and outside
the Department. The Program Director is responsible for the day-to-day
management of the WMO and the IWN program. The Program Director
position is rotated between the components every 18 months.

      Department component officials expressed concern about the frequent
changes in leadership at the WMO. Component officials told us that they
were not always sure who was in charge at the WMO. Those same officials
also stated that the lack of WMO oversight and structure was detrimental to
the implementation of IWN. According to the USMS’s National Program
Manager for Radio and Communications, changes in key positions at the
WMO resulted in a change in the direction of the program and administrative
interaction between the components and the WMO.27 For example, after one
      26
           The Assistant Deputy Director position was added to the new structure in 2010.
      27
         Examples of administrative interaction include the process for requesting funding
by the components and allocation of components’ budgets and Operations and maintenance
costs.
                                            32 

change in leadership, a decision was made to request vendor proposals for
the development of the IWN plan. After competing the IWN development
contract for 3 years, General Dynamics was selected as the system
integrator. Recently, due to ongoing budget constraints, the Department
issued stop work orders on two task orders to General Dynamics and the use
of a systems integrator has now been abandoned.

      We found that the frequent changes at the WMO affect program
continuity and direction. As a result, we believe the long-term planning for
the IWN program has suffered and has been exacerbated by the
components’ frustration with the lack of leadership at the WMO.

Extended Timeframes and Project Delays

      In our 2007 report, we found that the lengthy IWN development and
implementation process had left the components waiting for upgraded
communications equipment. We found that 3 years later, the components
continue to wait. Although the original CTA plan recommended an
aggressive implementation schedule that would complete IWN’s
implementation in 2010, this plan was not adopted. The Department’s 2010
IWN plan currently estimates a scaled back implementation to be completed
in 2016. Despite these issues, the Department’s law enforcement agents’
need for reliable communications equipment is now over 13 years old.

       According to the Department’s Chief Information Officer, the
Department considers the IWN program a high priority, yet funding
limitations have contributed to implementation delays. Although the cost to
implement IWN was estimated at $5 billion in 2003, the Department has
only received about $375 million for implementation. In addition, the cost of
maintaining the components’ aged legacy LMR systems further strains the
Department’s ability to adequately fund the IWN program. Since FY 2005,
the Department has spent over $395 million to maintain legacy LMR
systems.

Changing Plans and Priorities

      We determined that since the initial project began in 1998, there have
been a number of plan changes and shifts in priorities. As we found in our
2007 audit, establishing the requirements and designing a system that met
the needs of a diverse group of users proved troublesome and time
consuming because the users had conflicting priorities and all users believed
that their needs were the most important. We found that little has changed
                                     33 

since our 2007 audit. In addition, we found that the WMO’s lack of a stable
management structure further contributed to an inability to manage the
shifting priorities for the program and an unclear chain of command.

       In addition, we found that while the operability of the Department’s
existing legacy systems are declining, the conditions of the legacy systems
varied by geographic area, which resulted in different priorities for IWN
implementation. For example, the DEA considers the cities of Chicago,
Detroit, and St. Louis to be priority geographic areas for upgrades because
the LMR systems were installed in 1985 and have not received upgrades.
However, the FBI, ATF, and USMS’s systems in the same areas are in better
condition. As a result, differences in priorities among the components
continue to play a major role in the delays in development of the revised
IWN program. The WMO as part of JMD has no operational responsibility or
authority over the components. As a result, the WMO is placed in a position
to plan and implement a program for four components that may each have
very different ways of doing things and different priorities. The components
are accustomed to designing and funding their own LMR systems and some
of the components have continued to resist the WMO efforts to create a
unified communication system for the four components. We believe that the
resistance of some of the components has contributed to the Department’s
slow development and implementation of IWN, which has increased the
likelihood that the Department will not be able to successfully implement
IWN as planned.

Incomplete IWN Plans for Deployment

      During its history, the WMO has partially implemented two IWN
deployment plans. As discussed above, the WMO implemented the first
deployment plan beginning in 2009 across the NCR, which is part of
Region 1. As we discuss below, as a result of the funding reductions that
occurred in FY 2010, the WMO has adopted a revised plan to continue the
deployment of IWN throughout the United States.

     IWN Implementation Across the Nation

      In 2008, the IWN implementation plan was projected to cost
$1.2 billion over 6 years, and it divided approximately 2,400 total radio
system sites across the nation into six regions as shown in Exhibit 3.
According to the IWN plan, each region was to be segmented into modules,
with an average of 14 modules per region. The deployment of IWN was
projected to occur in a concurrent and overlapping manner, with the last
                                     34 

module completed by approximately 2015. However, the NCR is the only
module deployed since the Seattle/Blaine pilot project due to the lengthy
IWN development and implementation process undertaken after the pilot
project.




                                     35 

                            Exhibit 4 

   The Department’s Projected Cost to Implement IWN Across the 

                        Nation as of 2008

                                                                              Planned
 Region
                  Region Name                   Included States               Budget
Identifier
                                                                             (millions)
                                           District of Columbia, Illinois,
                                            Indiana, Kansas, Maryland
                  Mid-Atlantic and        Michigan, Minnesota, Missouri,
     1                                                                             $304
                     Midwest28            Nebraska, North Dakota, Ohio,
                                           South Dakota, Virginia, West
                                       Virginia, Wisconsin, Kentucky, Iowa
                                       American Samoa, California, Guam,
     2                  West            Hawaii, Nevada, Northern Mariana           $149
                                                       Islands
                                          Connecticut, Delaware, Maine,
                                         Massachusetts, New Hampshire,
     3                Northeast               New Jersey, New York,                $177
                                           Pennsylvania, Rhode Island,
                                                      Vermont
                                         Arizona, New Mexico, Oklahoma,
     4               Southwest                                                     $187
                                                        Texas
                                           Alabama, Arkansas, Florida,
                                           Louisiana, Mississippi, North
     5                Southeast            Carolina, Puerto Rico, South            $223
                                            Carolina, US Virgin Islands,
                                                Georgia, Tennessee
                                       Alaska, Colorado, Idaho, Montana,
     6               Northwest           Oregon, Washington, Wyoming,               $80
                                                        Utah
                 National Elements
                                                                                    $29
                  and Training29

                 Integrator Program
                                                                                    $51
                   Management30
                   Total                                                         $1,200
Source: The WMO LEWC Budget

      28
           The National Capital Region is a part of Region 1.
      29
           The IWN plan designated National Elements and Training costs to cover the
development of items such as test plans, systems operations centers, regional management
centers, test labs, operations support, etc., at a national level.
      30
          Integrator Program Management costs are designated to cover General Dynamic’s
program management support in the design and deployment of the IWN system, which
includes subject matter expertise in areas of program management, engineering,
operations, and logistics support.

                                              36 

      We found that since its inception, the IWN program has not received
adequate funding to complete the planned implementation. Our 2007 audit
found that through FY 2006 approximately $772 million was appropriated to
the Law Enforcement Wireless Account. However, nearly two-thirds of the
$772 million was spent on legacy system maintenance. When the
Department developed the plan in 2008, with an expected cost of
$1.2 billion, it expected funding of about $200 million per year for IWN alone
to adequately fund the implementation. Instead, the Department received
approximately $100 million for IWN implementation in FYs 2009 and 2010.
As a result, in early 2010, the Wireless Communications Board determined
that, with the funding available, IWN’s implementation would follow a 12 to
15 year development plan. However, the IWN Program Executive disagreed,
stating that this timeframe was too long. As a result, according to the
Department’s Chief Information Officer, the Department’s components
developed an alternative plan, discussed in the following section, to
maximize available funding for the most important geographic areas.

         IWN funding cuts continue in FYs 2011 and 2012. The Department’s
FY 2011 budget request included $208 million for IWN, legacy equipment,
and special projects, which was cut in half in the Department’s final
$100 billion budget. The President’s proposed FY 2012 budget includes
$103 million in funding designated for legacy equipment maintenance only.
The Administration proposes suspending the IWN program development, and
it has concluded that the Department’s current reexamination of its
communication requirements and gaps will serve as the basis for assessing
whether different alternatives can address the Department’s communication
needs. The President’s 2012 Budget, in recommending the suspension of
the IWN program, cited current technology alternatives, such as 3G and 4G
Long Term Evolution (LTE) along with the National Public Safety Broadband
Plan in development, which are available today and did not exist when IWN
was originally conceived.31 Many believe that LMR systems will be replaced
by some type of secure broadband system. However, technology that will
fulfill the needs of law enforcement agencies has yet to be refined.

      As part of the Department’s response to the FY 2011 budget cut for
the IWN program and the proposed suspension of funding in FY 2012, the
Department has issued a stop work order on two task orders under the

       31
           3G and 4G LTE are the 3rd and 4th generation Long Term Evolution of the wireless
networks and the National Public Safety Broadband plan is part of the Administration’s
efforts to make the internet available nationally.

                                            37 

General Dynamics contract. The Department’s Chief Information Officer told
us that the current plan is to continue with a scaled down version of the IWN
program concentrating primarily on completing implementation in the area
around the NCR and replacing law enforcement agents’ radios.

     Alternative IWN Implementation Solution

      As previously stated, the initial implementation plan required annual
funding of $200 million for implementation. However, the WMO never
received this level of funding and the Wireless Communications Board
decided to revise the plan. The Program Executive said that since early
2010, a new approach for IWN’s implementation has been under
development by the Wireless Communications Board and the components to
explore various implementation plans to obtain “the most bang for the
buck’’.

      According to a June 2010 Department report to Congress, the WMO
was revising the IWN cost model depicted in Exhibit 4 to address funding
and implementation schedule scenarios that go beyond the originally
contemplated 6 year plan. Given budget constraints, the Department’s
components proposed spending $100 million annually over 6 years (initially)
on an alternative IWN solution to address high priority issues that include:

     1. Providing new radios to field agents that are secure (with Advanced
        Encryption Standard), digital, and backward-compatible with legacy
        radio systems; will function on both conventional and trunked
        narrowband systems; and support interoperability with state and
        local law enforcement. The budget for the new radios is
        $240 million.

     2. Completing the narrowbanding of remaining conventional FBI
        wideband sites across the United States and upgrading radio
        channel capacity to accommodate DEA and ATF users, where
        needed (USMS personnel predominantly already use FBI radio
        systems). The budget for the narrowbanding and additional
        capacity at the FBI LMR sites is $60 million.

     3. Continuing the design and development of a nationwide trunked
        LMR system, consistent with the first module implemented in the
        National Capital Region, by focusing first on high-risk, major
        metropolitan areas with higher concentrations of agents. The

                                     38 

            current budget for the upgraded trunked LMR system at selected
            metropolitan areas is $300 million.

       The WMO has presented the approach to the Department Investment
Review Board on multiple occasions. During its October 2010 meeting, the
Department Investment Review Board provided certification with
qualifications, but required the following program support for final
certification. Specifically, the Department Investment Review Board
required that the WMO:

       1. Develop a Risk Mitigation Plan that identifies component-level
          resource dependencies and obtains component commitment to
          provide those resources.32

       2. Report quarterly to the Department Investment Review Board on
          the status of the use of incentive-based task orders and the
          financial impact of these task orders.33

       3. Brief the Deputy Attorney General regarding the interoperability of
          the IWN solution with state and local law enforcement and first
          responders, and the costs and sources of funding to implement and
          support the interoperability links.

      These qualifications were addressed in the June 9, 2011, Department
Investment Review Board meeting and closed. However, according to the
Investment Review Board’s meeting minutes, there are continuing concerns
about significant project issues. The Investment Review Board expressed
concern with the effort that has been required to address the technical
problems with the NCR deployment, perception on the Hill that this project is
a sole-source procurement, and inaccurate time estimates for key milestone
completion.

Issues with IWN Oversight

      In addition to the implementation issues with IWN, we determined that
the IWN program oversight is deficient. While there are a number of

       32
          Since the Department has increased its reliance on the components to provide
expertise and personnel to complete the IWN program, the Department Investment Review
Board wanted to ensure that these resources were available and committed.
       33
          The WMO plans to use performance based contracting where appropriate and
recognize the quality and timeliness of the contractor’s performance through incentives.
                                            39 

oversight mechanisms in place to ensure that program development and
implementation are monitored, these mechanisms did not function as
planned. The oversight mechanisms that were in place for the IWN program
included the Earned Value Management (EVM) review, the federal IT
Dashboard, the Independent Validation and Verification (IV&V) and the
independent baseline review. We discuss each of these below.

Earned Value Management

       The EVM process is required by the Office of Management and Budget
for major information technology projects. EVM is designed to help manage
project risks by evaluating progress, and allowing the analysis of project cost
and schedule performance trends. EVM compares the current cost and
schedule status of a project to the established cost and schedule baselines.
In July 2010, the Department’s EVM Manager conducted the annual
Surveillance Review of the IWN program. During the review, the
Department’s EVM Manager reviewed the WMO’s EVM documentation to
determine compliance with all 32 American National Standards Institute/EIA
– 748 EVM Guidelines. As of August 2010, the WMO was in compliance with
the guidelines. According to the Department EVM Manager, a formal report
is not issued unless there are compliance issues. If compliance issues are
identified, the Department’s EVM Manager issues a corrective action request
and the component must then develop a plan to resolve the outstanding
issues.

       The Department EVM Manager stated that all personnel costs that
have a direct impact on IWN development should be reflected in the
performance baseline. This includes all contractor and government program
management personnel costs. There are other costs, such as “level of
effort” program management activities that also should be captured in the
performance baseline. However, the Section Chief for the WMO stated that
the WMO has not yet totaled the costs of staff and contractor labor. As a
result, even though IWN was reported as being compliant with the EVM
requirements, it has not been in compliance with respect to financial
reporting.

Accurate Cost Data Not Available

      As of April 2011, the total cost of the IWN program since its inception
in 1998 was not available. Cost information provided by the WMO contained
expenditure data beginning in 2005, but the program planning and pilot

                                      40 

program occurred prior to 2005.34 In addition, we determined that the
classification of costs did not accurately capture total IWN expenditures.
According to WMO officials, they have changed the classification categories
to improve the way they capture IWN expenditures.

       The Department’s Law Enforcement Wireless Communications (LEWC)
account supports the operations and maintenance of the Department’s
legacy LMR systems, special projects, and the IWN program. Exhibit 5
illustrates summary data provided by the WMO for expenditures from 2005
to 2010.

                                Exhibit 5 

                       WMO Compilation of Expenses 

                               2005-2010 

                                (millions)
                               Legacy LMR     Special
    Year              IWN                                                 Total
                                Systems       Projects
    2005                $ 43.8       $ 26.7                                 $ 70.5
    2006                  82.7          71.7                                 154.4
    2007                  30.7          68.4       $ 2.1                     101.1
    2008                   2.9          71.3         16.8                     91.0
    2009                  90.8          88.0         23.2                    202.0
    2010                  50.1          69.0          2.9                    122.0
    Total              $301.0       $395.1        $45.0                     $741.1
Source: WMO Cost Tracking Spreadsheets

       The WMO’s classification of expenses does not provide an accurate
picture of actual IWN expenditures to date. Although the LEWC account
classifies expenditures for each of the categories in Exhibit 5, IWN cost data
can be included in more than one category. For example, special projects
included expenditures for the legacy systems as well as for IWN-compatible
radios. In addition, all personnel and program management costs were
categorized as legacy systems expenses, even though many of these costs
were IWN related. According to our analysis of IWN expenditures, Exhibit 6
presents a more realistic account of the costs by category. However, in our
judgment this still does not reflect actual IWN costs.




      34
         According the WMO, the Cost Tracking Spreadsheets we reviewed were prepared
by the WMO to augment the Department’s Financial Management Information System data
reports.
                                         41 

                                  Exhibit 6 

                         OIG Compilation of Expenses 

                                 2005-2010 

                                  (millions)
                        Legacy                 Personnel/
                                  Special
 Year        IWN         LMR                    Program                      Total
                                 Projects
                       Systems                Management
 2005       $ 43.8        $ 24.6                     $ 2.2                      $ 70.6
 2006         82.7          55.4                      16.3                       154.4
 2007         31.1          66.4                        3.6                      101.1
 2008          9.9          71.2                        9.9                       91.0
 2009        103.0          57.4    $23.0             18.6                       202.0
 2010         50.1          58.5        2.9           10.5                       122.0
Total       $320.6       $333.5     $25.9            $61.1                      $741.1
Source: WMO Cost Tracking Spreadsheets

      In addition, the WMO is unable to quantify the amount of funding
spent on IWN by the individual components. As the manager of the
Department’s funds for wireless communications, the WMO is also
responsible for providing the components with the funds needed to maintain
the legacy systems. In this capacity, the WMO transfers these funds to the
components but has no oversight over the actual expenditures. As a result,
the components may be using these funds to purchase radios that are IWN
compliant and related equipment.35 If the components are purchasing
radios that are IWN complaint and equipment with legacy systems funds
then the IWN spending is understated, while the legacy LMR systems
spending is overstated.

       We found cost discrepancies when comparing special project costs
reported by the WMO and the Special Projects Section Chief. When we
reported these discrepancies to the Section Chief, he stated that the
discrepancies relate to how he and the WMO define special projects. The
Special Projects Section Chief said that special projects are related to
interoperability, reconstitution of damaged equipment, augmentation of
systems in perceived high threat regions, and special event preparation. For
example, he explained that the costs reported by the WMO most likely
reflect radio and equipment purchases outside of what he considers a special

      35
          Radios that are IWN compliant refer to the radios the Department purchased that
are P25 compliant and designed to operate on the new IWN system. These radios are
generally Motorola radios due to the Department’s requirement that the radios be backward
compatible with the existing legacy systems.
                                           42 

project. As a result, there are IWN costs being included in the special
projects category as well.

       We concluded that based on the account descriptions, many of the
accounts could have costs related to the IWN program. For example,
modular subscriber expenses are for radios used in the IWN system.
Funding for Program Management and IWN operations and maintenance also
include costs that are part of maintaining IWN. In addition, special projects
costs include radios used for agents. We requested the WMO’s accounting
policies and manuals that explain the cost categories for the LEWC or how
costs are to be entered. We were told that such policies or manuals do not
exist. Therefore, there is no clear separation of IWN expenses from other
LEWC expenses. As a result, it is impossible to determine the true cost of
the IWN program.

       For example, the WMO Section Chief for Program Management told us
she is the lead person responsible for capturing costs for the NCR with the
help of contractors and that they are working to identify costs not previously
captured. She also told us that the WMO is unsure of the true costs of NCR
at this point because the information reported only included contractor costs.
Contractor costs are not considered true costs because the systems
integrators were doing more than NCR work. During our audit, the WMO
was still trying to determine NCR costs, including capturing costs of staff
time not been previously identified. The Section Chief also stated that, as a
very early estimate of the cost of NCR, the WMO spent $32 million on the
systems integrator and $32 million on equipment. However, this $64 million
total does not include government or contractor labor, which the WMO has
yet to compile.

      Inadequate tracking of IWN costs can mislead and misinform
stakeholders. Costs from other WMO accounts can easily be confused with
IWN expenses. The WMO should establish and adhere to an accounting
policy and develop a manual explaining how costs should be entered into its
accounting system. In addition, the WMO should exercise more oversight
over the component’s expenditures for the legacy systems to ensure that the
costs are properly categorized.

Dashboard Reporting

      As part of the government’s transparency initiative, the government
created an online report for major information technology programs called
“The IT Dashboard.” The IT Dashboard is a government wide report
                                     43 

designed to show the current status and cost of information technology
projects. It displays information on cost, schedule and performance
information. After a program is entered onto the IT Dashboard, agency
Chief Information Officers are responsible for updating cost, schedule and
performance data on a monthly basis.

      The IT Dashboard indicates that $99.4 million has been expended on
the IWN program since its investment start date, October 1, 2008.
However, IWN’s development actually began 10 years earlier. Therefore,
program costs incurred prior to October 1, 2008 are not reported in the IT
Dashboard report. In addition, the costs reported on the IT Dashboard only
shows costs beginning in 2008 and do not approximate the costs reported by
the WMO as previously shown in Exhibit 5.

      We also found that the IWN program was re-baselined in 2008.
Re-baselining usually occurs when a project’s progress – cost and schedule –
deviates significantly from the original plan and the remaining time and
funds are not sufficient to complete the project. The Department EVM
Manager stated that if the WMO plans to implement its new approach, they
would need to re-baseline the project again. This re-baselining of the IWN
program is irrelevant since the IWN program was eliminated from the IT
Dashboard report on May 25, 2011, because the investment was eliminated
from the FY 2012 budget request.

Independent Verification and Validation Recommendations Implementation
Delayed

      In September 2009, Booz Allen Hamilton was awarded a $1.6 million
contract to perform an IV&V of the NCR implementation plan. The goal of
the IV&V contract was to ensure that the design and deployment of the NCR
would meet the users’ needs and was well engineered. The contract
consisted of a comprehensive review of the stakeholder and user
requirements, system design, and system deployment to ensure that the
system is complete, encompassing, and meets all of the requirements.

      In July 2010, the Booz-Allen Hamilton IV&V team delivered its Final
Design Report for the NCR. The report noted that there was no slack time in
the schedule, and Booz Allen Hamilton officials said in the report that the
schedule was likely to get more compacted as implementation proceeded




                                     44 

due to unexpected issues and delays.36 The implication was that previously
planned tasks would either be omitted or pushed into future phases, deleted
or revised so less was delivered, or implementation would be delayed.
During implementation of a major project, there are usually unforeseen
problems or developments that can cause delays or require adjustments.
Therefore, time is usually built into the project to resolve these issues
without delaying the delivery of the final product. The Final Design Report
contained approximately 200 program and technical recommendations. The
report also identified design issues including a lack of redundancy and
backups to ensure communication in case of a partial system failure.

      A WMO official stated the WMO formally responded to the
recommendations from Booz Allen Hamilton in an email accepting the
recommendations. However, according to the official, the WMO did not
inform Booz Allen Hamilton that the WMO had no plans to incorporate the
recommendations into the NCR plan because the WMO believed that many of
the recommendations were related to program management, rather than
technical issues.

      Failure to implement the critical risks identified by the IV&V contractor
may be detrimental to the IWN program. The IWN program could fail to
deploy due to bottlenecks or serious constraints that were overlooked.
Therefore, we believe the WMO should coordinate with Booz Allen Hamilton
to resolve the critical recommendations identified in the IV&V report.

Integrated Baseline Review and Risk Tracking Not Conducted

       According to the Federal Acquisition Regulation 34.202, when an EVM
is required, the government will conduct an Integrated Baseline Review. The
purpose of the Integrated Baseline Review is to verify the technical content
and whether the related performance budgets, resources, and schedules are
realistic. The Integrated Baseline Review is intended to provide a mutual
understanding of the inherent risks in offerors’ or contractors’ performance
plans and the underlying management control systems.

      The Integrated Baseline Review should provide enough information to
assist in developing a plan to handle these risks.37 The WMO did not

       36
          Slack time is time built into a project to cover unexpected delays without delaying
the project delivery.
       37
          The Integrated Baseline Review is a joint assessment by the offeror or contractor,
and the government, of the — (1) Ability of the project’s technical plan to achieve the
                                             45 

conduct an Integrated Baseline Review for the NCR because WMO
representatives said that other meetings were held that eliminated the need
for a formal review.

       While we were told during our audit that risks were not formally
tracked, the WMO has re-implemented risk management for the IWN
program. The WMO has also issued a formal Risk Management Plan, dated
August 4, 2011, which is intended to identify and manage program, project
and operational risk that could negatively impact the cost, schedule, or
performance of the projects the WMO manages. We believe that these
efforts are a positive step in risk management for the IWN program.

Deficient Contract Used to Purchase Radios

      An integral part of the IWN program was consolidating the purchase of
tactical communications equipment within the Department to eliminate
duplication of effort and achieve cost savings. In October 1998, the
Attorney General created the WMO within the Justice Management Division
to serve as the central purchasing agent for all Department tactical
communications equipment.

       According to the Chief Information Officer, the Department chose to
purchase radios for the IWN program from Motorola rather than pay the
systems integrator, General Dynamics, an 8.5 percent markup.38
Consequently, in 2009 and 2010, the WMO relied on the DEA to use an
existing contract with Motorola to purchase radio equipment for all
Department components.

      Unlike the WMO’s contract with General Dynamics, which was the
product of a competitive bidding process and was negotiated specifically for
the IWN program, the DEA contract identified Motorola as the sole supplier
of maintenance services and associated equipment to ensure the continued

objectives of the scope of work; (2) Adequacy of the time allocated for performing the
defined tasks to successfully achieve the project schedule objectives; (3) Ability of the
Performance Measurement Baseline to successfully execute the project and attain cost
objectives, recognizing the relationship between budget resources, funding, schedule, and
scope of work; (4) Availability of personnel, facilities, and equipment when required, to
perform the defined tasks needed to execute the program successfully; and (5) The degree
to which the management process provides effective and integrated technical/schedule/cost
planning and baseline control.
       38
          These radios were purchased specifically for the NCR implementation, which is the
current region being deployed under the IWN program.
                                            46 

operation of DEA’s existing LMR systems. The DEA contract, awarded in
FY 2009 and valid for 5 years, had an estimated value of $500 million. In
total, under the Motorola contract the DEA purchased radios at a cost of
$58,080,335 for the entire IWN program in FY 2009, and the WMO
transferred $28,175,087 to the DEA to purchase IWN radios under this same
contract for FY 2010. A WMO Deputy Director told us that the DEA would
continue to have the responsibility to procure future radio purchases for the
IWN program because there is enough money on the contract to make all
future purchases.

      In addition, a WMO official told us that the DEA contract was used
because the WMO Contracting Officer would not have been responsible for
the radio purchases in FY 2010. According to the Chief Engineer, most of
the radio purchases made for FY 2010 were for new agents and these
purchases were made by the components rather than the WMO. Further,
the purpose of the contract—to obtain support for DEA legacy networks—did
not include the procurement of IWN related equipment for DEA and other
Department components. Nevertheless, the DEA contract was used to
purchase radio equipment specifically for the IWN program.

      Although the radios purchased under the DEA contract were dual
compatible and could be used for either IWN or legacy systems, the radio
purchases for the IWN program, specifically the NCR, were not used to
maintain the legacy network, which was the purpose of the original DEA
contract.

       According to meeting minutes, the Wireless Communications Board
also agreed to have DEA purchase radios for the components; however, we
did not find any documentation from Wireless Communications Board
directing the DEA to purchase radios for other Department components. The
WMO Assistant Deputy Director told us the Wireless Communications Board
agreement occurred without written direction because the WMO was running
out of time to obligate funds before the end of the fiscal year. He also
stated that the WMO planned to use the DEA contract for future radio
purchases so it made sense to continue using the existing DEA contract.

      In addition, WMO staff and component officials cited administrative
problems with the DEA contract with Motorola, including that it lacked
appropriate signatures for authorization and therefore was not properly
executed.



                                     47 

       In the course of our audit, in December 2010, we issued a
Management Advisory Memorandum to Justice Management Division officials
because we were concerned that that the WMO had purchased over
$86 million in IWN equipment through a deficient DEA contract that lacked
the appropriate Department signatures and did not authorize the purchase of
IWN equipment. In addition, we were concerned that the WMO may be
violating procurement regulations by not using fair and open competition to
procure radios. We also were concerned that by using the DEA contract with
Motorola, the WMO is not centrally managing program spending, as
mandated.

       In its response to our Management Advisory Memorandum, the
Department conceded that the contract was in fact deficient, but that the
WMO was not aware of the deficiency and thus the use of a deficient
contract was not intentional. They also indicated that the contract
deficiencies have been remedied and the contract continues to be used for
radios purchased for the IWN program. We believe that as long as the WMO
gives the DEA this procurement responsibility for radio purchases, the WMO,
which is responsible for fiscal oversight of IWN funds, will not have the
necessary oversight and control that it needs to monitor IWN funds.




                                    48 

III. S
     	 TATUS ON DEPARTMENT’S COMPLIANCE WITH THE NTIA
     NARROWBANDING MANDATE

      The Department is not fully compliant with the National
      Telecommunications and Information Administration (NTIA)
      mandated narrowbanding requirements and faces increasing
      difficulty maintaining access to wide band frequencies.
      Insufficient funding and logistical issues plague the Department’s
      implementation of the NTIA mandate. The effects of the
      Department’s failure to meet the mandate have been minimal
      thus far. However, the Department may face increasing
      difficulty utilizing its assigned frequencies if narrowbanding is not
      completed.

NTIA Narrowbanding Mandate

      In October 1993, the NTIA mandated all federal radio frequency
spectrum users enhance spectrum efficiency usage within the increasingly
congested land mobile bands by transitioning their land mobile radio (LMR)
channels to narrower, more efficient channels. By reducing channel
bandwidth, the NTIA expected to double the available spectrum and
encourage the development and use of new technologies that will further
promote efficient spectrum use, be less susceptible to interference, and
provide enhanced capabilities. This process is commonly known as
“narrowbanding.”

      The NTIA concluded that efficiency could nearly double spectrum
availability under the narrowbanding process. Under the mandate, very high
frequency (VHF) operations had until January 1, 2005, and ultra high
frequency (UHF) operations had until January 1, 2008, to convert from
wideband (25 kHz channels) to narrowband (12.5 kHz channels). The
NTIA’s Office of Spectrum Management oversees the federal portion of the
mandate.

     According to a Department representative on the NTIA’s Inter-
department Radio Advisory Committee (IRAC), the status of the
Department’s compliance with the mandate is of concern to NTIA because
the Department is one of the few federal agencies that is not fully
narrowbanded.39

      39
        The IRAC is a committee within the NTIA that helps the Assistant Secretary of
Commerce assign frequencies to U.S. Government radio stations; and develops and
                                           49 

Spectrum Management

       As previously stated in our 2007 report, the IWN program incorporated
the NTIA requirements. However, the Department has not fully complied
with the mandate. The WMO Chief Engineer who oversees the Department’s
compliance with the NTIA mandate cited as problem areas both funding and
logistical issues. He told us that the Department is the largest land mobile
band user in the government. To fully comply, the Department needs to
replace the radios as well as the LMR systems. He noted for example, a
case in Mexico that affected 6,000 radios when the Department needed to
switch frequencies. The Department told the users when the new frequency
would become operational and provided instructions on how to reprogram
the 6,000 radios to the new frequency.

      The Department’s IRAC representative believes that the components
are not yet compliant because they do not have the funding to upgrade their
systems. He also told us that he believes the way to achieve compliance is
through IWN since the IWN program will include the narrowband
requirement. The IRAC representative said that within the Department, the
ATF is compliant because it was part of Treasury when Treasury fulfilled the
mandate. He also told us that the FBI is the least compliant with the NTIA
mandate because it has the most overall wideband assignments among the
Department’s components.

        Department officials stated that the Department is the least compliant
of all federal departments but acknowledged that it has more VHF channels
to convert to narrowband than other federal agencies. Our 2007 report
noted that of the 24 agencies with over 64,000 VHF channels, the
Department had 23 percent of these licenses. The IWN program grew out of
the Department’s need to comply with the narrowband mandate. However,
the delays in the IWN program have resulted in significant delays in
complying with the NTIA mandate. Exhibits 7 and 8 summarize the
Department’s overall and major components’ progress in meeting the VHF
and UHF narrowband requirements, respectively.




executes policies, programs, procedures, and technical criteria pertaining to the allocation,
management, and use of the spectrum.

                                             50
                                     Exhibit 7 

                             VHF Narrowband Status 

                              As of August 25, 2011 


             Narrowband            Wideband              Total      Percent
Bureau       Assignments          Assignments        Assignments Narrowbanded
  ATF
  DEA
  FBI
 USMS
Other40
TOTAL
Source: The WMO[LES]

                                     Exhibit 8 

                             UHF Narrowband Status 

                              As of August 25, 2011 


                Narrowband          Wideband              Total            Percent
Component       Assignments        Assignments        Assignments       Narrowbanded
     ATF
     DEA
     FBI
    USMS
    Other
   TOTAL
Source: The WMO[LES]

      The NTIA allows agencies 180 days to resolve a conflict between a
narrowband agency and a wideband agency attempting to operate on the
same frequency. The IRAC representative told us that it is up to individual
radio users to resolve communications problems, such as interrupting each
other’s conversations when attempting to use the same frequency, between
narrowband and wideband users. However, the IRAC representative said the
onus is on the wideband agency to resolve the issue because after the 180-

      40
          The “Other” category includes channels for designated Law Enforcement Incident
Response, the High-Risk Metropolitan Area Interoperability Assistance Project, and non-
operational use. We also included IWN Northwest, IWN San Diego, Bureau of Prisons and
Justice Management Division assignments in this category.

                                           51 

day period, the NTIA can order the wideband agency to cease operations on
the narrowband agency’s frequency.

      We were advised that since 2007, only one conflict over a
narrowbanding issue between the Department and another agency has not
been resolved. The IRAC representative told us that in this case, the DEA
was operating on a wideband frequency and the Department of Defense was
operating on the same frequency in narrowband. He said the Department of
Defense did not follow the policy to use alternative frequencies if they were
available. However, the dispute went to the NTIA and IRAC. The NTIA met
with the Department and the Department of Defense to resolve the issue
and ruled that the Department of Defense could not use its equipment on
the frequency until 2011. The IRAC representative said that he was
informed that the Department will be narrowbanded on that frequency by
2011 but he told us he still has doubts because of limited funding for the
IWN program.

Conclusion

       Our 2007 report concluded that the IWN program was facing
significant challenges and there was a high risk that the IWN program would
not be implemented as originally envisioned. We noted that after more than
6 years of development and an investment of more than $195 million, the
Department had received little more than one pilot system. The causes of
the program’s high risk for failure included uncertain funding to complete the
program, disparate departmental funding mechanisms, a fractured IWN
partnership, and the lack of an effective governing structure for the
program. Four years later, the successful completion of the IWN program is
still uncertain. While there were four causes of the possible IWN program
failure in 2007, the primary cause now is the lack of funds to complete the
IWN implementation in a reasonable period. The Department continues to
react to funding uncertainties and cutbacks by revising the IWN plan to meet
the available funding and program priorities. Through FY 2011 despite the
fiscal uncertainties and resulting plan changes, the Department has
implemented the IWN concept in the Seattle/ Blaine area (the Northwest)
and is in the process of deploying the NCR.

       It remains critically important that the Department’s law enforcement
officers and agents have a reliable, safe, secure, and efficient way to
communicate. Yet, the Department has not achieved communication
interoperability with other federal, state, and local law enforcement agencies
even though the IWN program has been underway for over 10 years. Joint
                                     52 

development of IWN with the Treasury and DHS has not been successful and
there is no longer a pursuit of an “Integrated Wireless Network” outside the
Department. Although the agencies did develop a new agreement in 2008
to resolve the issues we identified in our prior report, we found that the
2008 agreement has not accomplished the intended goal of an integrated
system. As a result, the Department and DHS are pursuing their own
solutions to their wireless communication needs.

       The Department continues to rely on the IWN program to upgrade the
disparate and aging LMR systems in the Department’s four law enforcement
components. This upgrade is intended to provide a unified and functional
system for the Department’s law enforcement agents. In addition, the
upgrade would address security concerns by upgrading the current system
to the required Advanced Encryption Standard and allow for over the air re-
keying encryption to ensure continued security of agents’ communications.
However, we determined that the Department has made minimal progress in
implementing IWN, primarily because of inconsistent funding and shifting
priorities. While planning and development of IWN began over 10 years
ago, the Department has only been able to implement the Seattle/Blaine
pilot project and is implementing the National Capital Region module as of
September 2011, leaving most of the Department’s law enforcement agents
operating on legacy LMR systems.

     We also found that the Department is still not fully compliant with the
NTIA’s narrowband mandate. The Department planned to incorporate the
narrowband requirements as part of its upgrade of the aging LMR systems,
however, delays in upgrading the LMR systems have also delayed the
Department’s implementation of the NTIA’s narrowband mandate.

      In addition, the planned suspension of the IWN program due to
FY 2012 funding cuts further jeopardizes the planned upgrades to the
Department’s aging LMR systems and the nationwide implementation of the
IWN project. As a result, law enforcement and emergency personnel will
continue to use inadequate, incompatible, and outdated equipment, resulting
in slower operational response times and potentially jeopardizing the lives of
law enforcement and emergency personnel and the people they have sworn
to protect.




                                     53 

Recommendations

    We recommend that the Department:

    1. Develop a detailed Interoperability Plan that establishes the
       Department’s role and plan for ensuring that federal, state, and
       local agents and first responders are able to communicate
       effectively.

    2. Accurately track and identify the costs associated with the IWN
       program and accurately reflect these costs in program reporting.

    3. Ensure that the WMO provides more oversight over all tactical
       communication purchases, as directed by Congress, to ensure the
       costs are properly categorized.

    4. Review and resolve the critical findings and recommendations
       identified in the Booz Allen Hamilton IV&V report.




                                   54 

              STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards, we tested, as
appropriate, internal controls significant within the context of our audit
objectives. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations
of laws and regulations. Our evaluation of the Justice Management Division
Wireless Management Office’s (WMO) internal controls was not made for the
purpose of providing assurance on its internal control structure as a whole.
WMO management is responsible for the establishment and maintenance of
internal controls.

      As noted in the Findings and Recommendations section of this report,
we identified deficiencies in the WMO’s internal controls that are significant
within the context of the audit objectives and based upon the audit work
performed that we believe adversely affect the WMO’s ability to accurately
track costs and risks. The WMO is unable to quantify the amount of funding
spent on IWN by the individual components. The WMO oversees and directs
the Department of Justice’s consolidated approach to wireless
communications and centrally manages wireless communications funds. The
WMO is also responsible for providing the components with the funds needed
to maintain the legacy systems. In this capacity, the WMO transfers these
funds to the components but has no oversight over the actual expenditures.
As a result, the components may be using these funds to purchase radios for
the IWN program and related equipment. If the risks are not tracked, the
WMO may not be aware of the major risks are and therefore cannot take the
appropriate steps to avoid any risk triggers.

       Because we are not expressing an opinion on the WMO’s internal
control structure as a whole, this statement is intended solely for the
information and use of the WMO. This restriction is not intended to limit the
distribution of this report, which is a matter of public record.




                                     55 

                                                            APPENDIX I


           OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

      The objectives of the audit were to: (1) assess the progress made in
the implementation of the Department of Justice’s Integrated Wireless
Network (IWN) program since our last audit, (2) assess whether the
Department of Justice’s (Department) communication systems comply with
the National Telecommunications and Information Administration’s (NTIA)
requirements, and (3) assess the Department’s implementation of our
previous recommendations.

Scope and Methodology

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      To assess the implementation of IWN, we examined documents
provided to us by Department officials, including the memorandums of
understanding between the Department, Departments of Treasury and
Homeland Security; IWN Program and Strategic Plans; Wireless
Communications Board minutes, Department Investment Review Board
Meeting summaries, quarterly reports to Congress, and other pertinent
documents.

      We conducted fieldwork at the Department’s Wireless Management
Office in Fairfax, Virginia, and at other various offices of the Justice
Management Division in Washington, D.C. We interviewed officials from the
Bureau of Alcohol, Tobacco, Firearms and Explosives; the Federal Bureau of
Investigation; the U.S. Marshals Service; and the Drug Enforcement
Administration who serve on the Wireless Communications Board and the
Wireless Working Group. We also interviewed representatives for the
Departments of Treasury and Homeland Security. In addition, we met with
an Office of Management and Budget representative to discuss the
Administration’s National Broadband Plan.
                                        56 

      We assessed the progress of the National Capital Region IWN
implementation and the plans for continued nationwide implementation. We
also assessed the Department’s compliance with the NTIA narrowbanding
requirements and revised security requirements.




                                   57 

                                                     APPENDIX II

                           ACRONYMS

ATF    Bureau of Alcohol, Tobacco, Firearms and Explosives

DEA    Drug Enforcement Administration

DHS    Department of Homeland Security

EVM    Earned Value Management

FBI    Federal Bureau of Investigation

FY     Fiscal Year

GAO    Government Accountability Office

IRAC   Interdepartment Radio Advisory Committee

IV&V   Independent Verification and Validation

IWN    Integrated Wireless Network

LEWC   Law Enforcement Wireless Communications

LMR    Land Mobile Radio

NCR    National Capital Region

NTIA   National Telecommunications and Information Administration

OIG    Office of the Inspector General

UHF    Ultra High Frequency

USMS   United States Marshals Service

VHF    Very High Frequency

WMO    Wireless Management Office




                                 58 

                                                                                       APPENDIX III

        DEPARTMENT OF JUSTICE RESPONSE
           TO THE DRAFT AUDIT REPORT


                                                         U.S. Department of Justice




                                                         W(.<.fhl1lgflm. D .C. 10530

      DEC 30 2011
MEMORANDUM

TO:              Raymond J . Beaudet
                 Assistant Inspector General for Audit

FROM:    {(ilL   Lee Lofthus ~~ad-..-
                 Assistant Anomey General for Administration

SUBJECT:         Response to Draft Audi t Report of the Department of Justice ' s Implementation of
                 the Integrated Wireless Network


       This responds to the Draft Audit Report, Audit of the Department of Justice 's
Implementation of the Integrated Wireless Network (Report). While we concur with the
recommendations and much of the Report' s discussion of the facts. we provide the following
general comments and concerns.

        The Report states that the Integrated Wireless Network (lWN) program has not achieved
the results that the Department originally intended when the Department began developing it in
1998. comparing the Department's achievements to the original goals established then. The
original IWN objective was a nationwide interoperable broadband voice and data network
servicing the Departments of Justice. Treasury and Homeland Security. with an estimated total
cost of $5 bil1ion. However. as the report acknowledges. changing circumstances have required
the Department to significantly change the scope and deployment approaches for the IWN
program. What has not changed is the Department' s commitment to implementing a reliable.
secure. interoperable Land Mobile Radio system for its tactical wireless communications.

         It is important that the lWN project be measured against its current objectives rather than
an initial - but not frnalized - plan no longer being pursued for both technological and funding
reasons. Despite the challenges to the project noted in the Report. the Department has achieved
significant improvements in the wireless communications capabilities delivered to our law
enforcement agents. The Department has expanded the Northwest communication system from
a pilot to an operational system in use by the states of Washington and Oregon. In addition, the
West coast system provides voice communications in San Diego and in the lmperial Counties in
southern California, and deployment of the system within the National Capital Region is
underway. All three of these systems support users from the Department of Justice and elements
of the Department of Homeland Security. In addition, the High-Risk Metropolitan Area
Interoperability Assistance Project provides 29 metropolitan cities w ith interoperability channels
for use by federal law enforcement and homeland security agencies.




                                               59 

        The Report opines on various deficiencies in the Department's tactical wireless
communications systems and related issues, without clarifying whether the deficiencies were
attributable to the conduct of the project or to broader external circumstances. (E.g., "The
Department has made limited progress in upgrading the Land Mobile Radios (LMRs) operated
by its components," Report at 21 .) The Department acknowledges and agrees that there are
many issues with its wireless communications systems that it is addressing. Nonetheless, it is
important to note that the project from its outset was sweeping in terms of its organizational
dimensions (i.e. crossing agencies as well as levels of govemment), had significant technical
complexity, and would require an extended multi-year timetable for implementation. Moreover,
the project does not exist in a static environment - it faced, and still faces, the aforementioned
complexities in an extremely dynamic environment in terms of significant technology changes,
evolving law enforcement demands, and fiscal constraints. The inherent complexities of the
project and its changing external circumstances have been the major factors influencing the
project's progress to date.

         I am concerned the report contains statements attributed to WMO staff or individuals
outside the WMO suggesting that key processes were not performed or that critical system
capabilities were arbitrarily left out. As one example, the Report indicates that "FBI and USMS
officials and the WMO engineer also stated that IWN does n01 have a consolidated dispatch
center." Report at 29. This was an intentional configuration decision, as we informed you
previously, based on an evaluation of risk, cost and the in-house dispatch capabilities available.
There are multiple ways a system can be configured, and rather than make it appear as though
the project team erred, the OIG Report should have recognized this was a deliberate
configuration decision pursuant to a rigorous change management process. Another example is
the Report 's discussion of the fact that the operational test and evaluation of the NCR systems
was removed from the contractor' s proposal and was instead performed in-house against the
views of engineering staff. Report at 28. Again, this was a sound, deliberate decision: the in-
house team was able to perform operational testing that more accurately reflected real-life law
enforcement conditions than the test script proposed by the contractor. Finally, the report also
cited a manager's statement that the WMO did not build circuit redundancy into the NCR sites,
meaning that if a circuit was lost the system would have no backup plan. Report at 29. In fact,
as the report later mentions, NCR was designed with overlapping towers to allow for such
redundancy, rather than relying on circuit redundancy. The Wireless Communications Board
opted for the overlapping tower coverage because such coverage was determined to be more than
adequate and offered tremendous cost savings when compared to circuit redundancy. This
critical fact is lost in the Report.

         As a general matter, given the large number of possible technical solutions and
configuration decisions routinely encountered with systems such as IWN, it is not unexpected
that individuals at different levels of the project may prefer one technical solution versus another.
I fully expect our senior Project managers will weigh alternatives and make configuration
choices throughout the IWN project. Thus, it would have been valuable for the auditors to
discuss the aforementioned decisions in depth with the Director of the WMO. Further, we note

                                                  2




                                                60 

that while the report included the differing views on the project decisions, it did not demonstrate
shortcomings with the decisions made by the Department.

       Similarly, I have concerns with the Report's commentary about the Department using the
DEA maintenance and equipment contract with Motorola, rather than the systems integration
contract with General Dynamics, for the purchase ofradios for the Department. For example,
the Report notes that the General Dynamics contract was the result of competition, while the
Motorola contract was a sole source, which seems to suggest that the Department may have paid
more than necessary for the Motorola radios.

       In fact, using the DEA contract, which was a val id procurement option for the
Department, saved approximately $9 million over a two year period. In addition, as General
Dynamics itself recognized, only Motorola radios are currently capable of meeting the
Department's requirements. General Dynamics, like the DEA, would have been required to
negotiate a sole source contract with Motorola had we pursued the radio purchase under the
General Dynamics contract.

        In addition, the Report makes observations and draws conclusions regarding particular
radio buys based on its assessment of whether the transaction involved the purchase of"IWN
radios." The Department only purchases radios that are interoperable with both the newer P-25
infrastructure (such as the IWN system within the NCR) and legacy systems. In other words,
every LMR subscriber radio the Department purchases can be used on either IWN or legacy
systems. There is no IWN-specific radio.

        As a related point, the Report indicates the DEA contract was only to be used for legacy
system radios, implying that the purchase of radios that would be, or could be, used also on the
IWN system was not within its scope. This is not accurate. The DEA Contract's Scope of Work
states clearly that it is available to be used for upgrades and new technology, stating, " P25 is
evolving and the Government reserves the right to procure available compatible products." The
fact that radios purchased under the DEA contract for use in legacy systems also could be used
on the IWN system does not mean the radios were outside the contract's scope.

        Finally, the Report commented upon the WMO's responsibility to oversee, control and
monitor funds, and questions the WMO's use ofa law enforcement component's existing
contract, or the issuance ofan order by another component's contracting officer. As we noted in
response to the OIG's Management Advisory Memorandum , the salient point is that the WMO's
management authorizes, oversees, and is responsible for all radio purchases, regardless of the
contractual vehicle or component in which the contracting officer is assigned, and no expenditure
of funds is made without WMO management's approval and oversight.

Response to Specific Recommendations

Below are our responses to the Report 's four recommendations.


                                                 3




                                               61 

Recommendation I: Develop a detailed Interoperability Plan that establishes the Department's
role and plan for ensuring that federal, state, and local agents and first responders are able to
communicate effectively.

Response: The Department always has had an interoperability plan, and is currently using a
number of interoperability plans and approaches depending on the technical environment of the
site and other factors. We concur that an updated and consolidated plan would be beneficial and
will prepare an updated single Interoperability Plan by the end of the third quarter of FY20 12.

Recommendation 2: Accurately track and identify the costs associated with the lWN program
and accurately reflect these costs in program reporting.

Response: The Department accurately tracks and identifies the costs associated with the overall
IWN program using its integrated financial system consistent with the business rules required by
that system. The WMO also tracks costs at an even more granular level. This ability to
accurately track and identify IWN costs will be documented in the fWN procedures update that
will be completed by the end of the second quarter of FY2012.

Recommendation 3: Ensure that the WMO provides more oversight over all tactical
communication purchases, as directed by Congress, to ensure the costs are properly categorized.

Response: Concur. The WMO recognizes that categorization of certain costs is a matter of
business judgment. The WMO will update its current and existing operations and maintenance
(O&M) governance document to provide further clarification on its practice on categorization of
such purchases. The WMO will also expand the O&M governance document to address
categorization practices regarding non-O&M related items, such as equipment for new systems
development and consolidated radio procurements. The document will be updated by the end of
the second quarter of FY2012.

Recommendation 4: Review and resolve the critical findings and recommendations identified
in the Booz Allen Hamilton (BAH) IV & V report,

Response: The BAH rv&V Report was completed thi s year. It is not possible to implement all
of its recommendations in the current funding environment and therefore the Department must
make business choices regarding which recommendation to implement. However, the WMO
concurs with the overall recommendation to implement appropriate improvements and is
committed to implementing the BAH recommendations as project funding permits.

Once again, thank you for the opportunity to comment on the report. We do share your views on
the importance of making continued progress on wi re less inte-ir.o.pe
                                                                     . ra. b. i.li.'Y. 'IIIiS.h.O.U.ld. YiOU have any
questions or concerns regarding thi s response, please contact .




                                                          4




                                                        62 

                                                          APPENDIX IV


          OFFICE OF THE INSPECTOR GENERAL 

         ANALYSIS AND SUMMARY OF ACTIONS

     NECESSARY TO RESOLVE AND CLOSE THE REPORT


       The Office of the Inspector General (OIG) provided a draft of this
report to the Department of Justice (Department) for its review and
comment. The Department’s response is incorporated as Appendix III of
this report. The following provides the OIG analysis of the Department’s
response and a summary of the actions necessary to resolve and close the
report.

Analysis of the Department’s Response

       In response to our report, the Department concurred with our four
recommendations, but later indicated that recommendation 2 is already
being implemented. We disagree with the Department’s statement that
costs associated with the Integrated Wireless Network (IWN) program are
accurately tracked and identified and thus we disagree with the
Department’s statement that it has already implemented recommendation 2.
We discuss this further below in the summary of actions necessary to close
the recommendations. In addition, the Department provided comments that
were not directly related to our recommendations. As we discuss in more
detail below, we do not agree with certain statements in the Department’s
response. Before discussing the Department’s responses to each of our
recommendations, we provide the following reply to statements not related
to specific recommendations.

      In its response, the Department said that the OIG report “states that
the [IWN] program has not achieved the results that the Department
originally intended . . . in 1998, comparing the Department’s achievements
to the original goals established then.” This statement is an incomplete
recitation of our findings. This report assesses the current status and the
progress made in the implementation of the IWN program since our previous
audit report was issued in 2007; the Department’s compliance with National
Telecommunications and Information Administration requirements; and the
status of the Department’s implementation of our previous
recommendations. In our 2007 audit report, we determined that the IWN
program was at high risk of failing primarily due to uncertain funding and
the fractured partnership between the Departments of Justice (Department),

                                    63 

Treasury, and Homeland Security (DHS). This report provides the current
status of the joint program and recognizes the changes that have occurred
since our last report.

       We recognize throughout the report that the IWN program of today is
significantly different from the program that the Department originally
envisioned. In fact, the program of today is essentially a Department
project without the originally planned integrated involvement of federal law
enforcement from other Departments, including DHS. This report also
recognizes the deployment of the Northwest system in Washington and
Oregon and the Southern California system, and both systems were also
included as a part of our prior 2007 report. With respect to the IWN
project’s deployment of the National Capital Region (NCR), the expected
operational date was October 2010. However, this system has yet to be
fully implemented as of January 2012. In addition, while we agree that DHS
participates in the Northwest and Southern California systems, DHS was not
involved in the development of the NCR. Instead, DHS involvement with the
NCR was strictly after the fact and has been limited to an expression of
interest in using the system that the Department developed and funded.

       The Department’s response further stated “The Report opines on
various deficiencies . . . without clarifying whether the deficiencies are
attributable to the conduct of the project or to broader external
circumstances.” The example cited in the OIG report is that the Department
has made limited progress upgrading the Land Mobile Radios (LMR) operated
by its components. The example cited is based on data provided by the
components on the status of the LMRs and the components’ ability to meet
security and interoperability requirements. In our report, we recognize that
funding for the IWN project has not been sufficient to implement the
necessary upgrades. However, we believe that it is also critical to recognize
the current status of the components’ LMRs regardless of the cause, and the
planned upgrades to the LMRs have been in the planning/implementation
stages since 1998.

      The Department’s response also expressed concern that the report
contains statements attributed to Wireless Management Office (WMO) staff
or individuals outside the WMO regarding key processes and critical system
capabilities. Our discussion of the key processes highlighted two areas – a
consolidated dispatch center and circuit redundancy – that were considered
by the 9/11 Commission and others to be significant issues affecting
communications during the incidents on September 11, 2001. As the
                                     64 

Department’s response properly acknowledges, the OIG report recognized
the differing views about whether these key systems have been properly
addressed, but it did not state that there were deficiencies or shortcomings
with respect to these processes in the IWN system. It also recognizes the
technical and other reasons for the decisions that were made by program
managers. Contrary to the Department’s response, we discussed these
reasons in depth during several meetings with the Director of the WMO and
component technical representatives. In addition, consistent with what we
state in our report, the NCR system is not operational at this time, and any
effect of these and other decisions is yet to be fully understood.

      The final topic of concern in the Department’s response is our
discussion of the Department’s use of a Drug Enforcement Administration
(DEA) maintenance and equipment contract with Motorola. We did not
perform a comprehensive review of the costs accrued under this contract
and thus we do not comment as to whether the sole source contract utilized
by the Department resulted in increased costs to the Department. The
report also includes the Chief Information Officer’s opinion that using the
Motorola contract saved the Department money. Rather, the report
discusses concerns regarding the use of sole source contracts and continued
reliance on a single vendor.

      With respect to the term “IWN radios”, we noted in our report that
radios for the IWN program are P25 compliant and compatible with legacy
systems. With respect to the use of the DEA contract when discussing
radios for the IWN program, the majority of the radios purchased by the
WMO were not for legacy systems as specified in the DEA’s Justification for
Other Than Full and Open Competition for the Motorola contract. Instead,
the majority of radios purchased using this contract were specifically for the
implementation of the NCR IWN system. While we recognize language from
the contract’s Scope of Work section may provide some flexibility in
purchasing P25 compliant and legacy system compatible components, we do
not believe it is appropriate to ignore the justification for the limited
competition.

      The Department’s response also discussed the fact that WMO’s
management authorizes, oversees, and is responsible for all radio
purchases. We do not disagree with this point, however, our audit found
that radios were purchased using a deficient contract in the past. This
substantiates our concerns regarding the effectiveness of this oversight.
While the use of a deficient contract may have been unintentional,
                                      65 

government contracting requirements have evolved over the years to protect
government funds and prevent abuse of all kinds, whether intentional or not,
and we believe that the potential for future problems remains.

Summary of Actions Necessary to Resolve and Close the Report

  1. Resolved.	 The Department concurred with our recommendation to
     develop a detailed Interoperability Plan that establishes the
     Department’s role and plan for ensuring that federal, state, and local
     agents and first responders are able to communicate effectively. The
     Department stated in its response that an updated and consolidated
     plan would be beneficial and it will prepare an updated single
     Interoperability Plan by the end of the third quarter of fiscal year
     (FY) 2012.

     This recommendation can be closed when the Department provides the
     updated single Interoperability Plan.

  2. Unresolved.	 The Department concurred with our recommendation to
     accurately track and identify the costs associated with the IWN
     program and accurately reflect these costs in program reporting. The
     Department stated in its response that it accurately tracks and
     identifies the costs associated with the overall IWN program and the
     WMO also tracks costs at an even more granular level. It also stated
     that the ability to accurately track and identify IWN costs will be
     documented in the IWN procedures update that will be completed by
     the end of the second quarter of FY 2012.

     After considering the Department’s response, we do not believe the
     proposed actions adequately address our finding. As discussed in our
     report, we found that the WMO was unable to accurately track and
     identify the costs specific to the IWN program, and particularly noted
     that the entire cost for the NCR was not being tracked.

     Therefore, this recommendation is unresolved. This recommendation
     can be resolved when we receive evidence that the Department’s
     system is able to accurately reflect the total cost of the IWN program
     since its inception in 1998.

  3. Resolved.	 The Department concurred with our recommendation to
     ensure that the WMO provides more oversight over all tactical
                                    66
  communication purchases, as directed by Congress, to ensure the
  costs are properly categorized. The Department stated in its response
  that the WMO recognizes that categorization of certain costs is a
  matter of business judgment and that the WMO will update its current
  and existing operations and maintenance governance document to
  provide further clarification on its practice on categorization of such
  purchases. The response also stated that the WMO will expand the
  operations and maintenances (O&M) governance document to address
  categorization practices regarding non-O&M related items, such as
  equipment for new systems development and consolidated radio
  procurements and that the document will be updated by the end of the
  second quarter of FY 2012.

  This recommendation can be closed when the Department provides the
  updated O&M governance document that shows the categorization of
  purchases to properly reflect their identity as IWN-related costs and
  not O&M or Special Projects.

4. Resolved.	 The Department concurred with our recommendation to
   review and resolve the critical findings and recommendations identified
   in the Booz Allen Hamilton Independent Verification and Validation
   (IV&V) report. The Department stated in its response that, while it is
   not possible to implement all of its recommendations in the current
   funding environment, it is committed to implementing the
   recommendations as project funding permits.

  This recommendation can be closed when the WMO provides the 

  completed Booze Allen Hamilton (IV&V) report, including the 

  Department’s resolution of the recommendations to implement 

  appropriate improvements. 





                                  67 

